<html>
<title> - HEARING ON H.R. 588, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO CREATE A NEW CATEGORY OF LONG-DISTANCE TRAILS TO BE KNOWN AS NATIONAL DISCOVERY TRAILS, TO AUTHORIZE THE AMERICAN DISCOVERY TRAIL AS THE FIRST TRAIL IN THAT CATEGORY, AND FOR OTHER PURPOSES; AND H.R. 1513, A BILL TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO DESIGNATE THE LINCOLN NATIONAL HISTORIC TRAIL AS A COMPONENT OF THE NATIONAL TRAILS SYSTEM</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON H.R. 588, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO CREATE 
    A NEW CATEGORY OF LONG-DISTANCE TRAILS TO BE KNOWN AS NATIONAL 
  DISCOVERY TRAILS, TO AUTHORIZE THE AMERICAN DISCOVERY TRAIL AS THE 
FIRST TRAIL IN THAT CATEGORY, AND FOR OTHER PURPOSES; AND H.R. 1513, A 
 BILL TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO DESIGNATE THE LINCOLN 
  NATIONAL HISTORIC TRAIL AS A COMPONENT OF THE NATIONAL TRAILS SYSTEM

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

    H.R. 588 AND H.R. 1513--TO AMEND THE NATIONAL TRAILS SYSTEM ACT

                               __________

                     JUNE 10, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-22

                               __________

           Printed for the use of the Committee on Resources


                      U.S. GOVERNMENT PRINTING OFFICE
 42-393 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 10, 1997--Washington, DC.......................     1

Statements of Members:
    Bereuter, Hon. Doug, a Representative in Congress from the 
      State of Nebraska..........................................     4
        Prepared statement.......................................     7
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah, prepared statement..........................     2
    Pickett, Hon. Owen B., a Representative in Congress from the 
      State of Virginia..........................................    24
        Prepared statement.......................................    25
    Weller, Hon. Jerry, a Representative in Congress from the 
      State of Illinois..........................................     9
        Prepared statement.......................................    11

Statements of witnesses:
    Joslin, Robert C., Deputy Chief, U.S. Forest Service.........    18
        Prepared statement.......................................    68
    Lillard, David, President, American Hiking Society...........    26
        Prepared statement.......................................    73
    Lock, Leonard E..............................................    31
        Prepared statement.......................................   102
    Lukei, Mr. Reese, Jr., National Coordinator, American 
      Discovery Trail Society....................................    27
        Prepared statement.......................................    81
    Stevenson, Katherine H., Associate Director, Cultural 
      Resources, Stewardship and Partnership, National Park 
      Service....................................................    17
        Prepared statement.......................................    53
    Theis, Bill, Member, S.T.O.P. (Stop Taking Our Properties) 
      Steering Committee.........................................    29
        Prepared statement.......................................    92

Additional material supplied:
    Bratton, Richard V., Mayor, Green Mountain Falls, CO.........    77
    Dudley, Ellen and Eric Seaborg, Members of the original team 
      that scouted the American Discovery Trail route............    50
    News-Dispatch, Sept. 5, 1997.................................   101
    Settler's Advocate, May 1, 1997..............................   100
    H.R. 588.....................................................    38
    H.R. 1513....................................................    47
    S. Res. 57...................................................    95


HEARING ON H.R. 588, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO CREATE 
    A NEW CATEGORY OF LONG-DISTANCE TRAILS TO BE KNOWN AS NATIONAL 
  DISCOVERY TRAILS, TO AUTHORIZE THE AMERICAN DISCOVERY TRAIL AS THE 
FIRST TRAIL IN THAT CATEGORY, AND FOR OTHER PURPOSES; AND H.R. 1513, A 
 BILL TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO DESIGNATE THE LINCOLN 
  NATIONAL HISTORIC TRAIL AS A COMPONENT OF THE NATIONAL TRAILS SYSTEM

                              ----------                              


                         TUESDAY, JUNE 10, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m. in 
room 1334, Longworth House Office Building, Hon. James V. 
Hansen presiding.
    Mr. Hansen. The Subcommittee on National Parks and Public 
Lands convenes this hearing to receive testimony on H.R. 588, 
the National Discovery Trails Act of 1997, and H.R. 1513, the 
Lincoln National Historic Trail Act.
    The first bill is H.R. 588, the National Discovery Trails 
Act of 1997, introduced by Mr. Bereuter and cosponsored by many 
of our colleagues, which would amend the National Trails 
Systems Act of 1968 by creating a new category of long-distance 
national trails and authorizing the American Discovery Trail as 
the first trail in this new category.
    [The information appears at the end of the hearing.]
    Mr. Hansen. The second bill is H.R. 1513, introduced by Mr. 
Weller, to amend the National Trails Act of 1968 by designating 
the Lincoln National Historic Trail in the State of Illinois.
    [The information appears at the end of the hearing.]
    Mr. Hansen. As we approach the 30th anniversary of the 
National Trails System Act of 1968, we should reflect briefly 
on the impact this legislation has had. From the initial 
recognition of the Appalachian Trail in the eastern United 
States and the Pacific Crest Trail of the western United 
States, the National Trails System today encompasses over 
37,000 miles of trails in 45 States, consisting of 20 
congressionally designated, nationally scenic and historic 
trails, administered by the National Park Service, the U.S. 
Forest Service and the Bureau of Land Management. In addition, 
there are over 800 recognized national recreation trails that 
do not require congressional authorization, which are 
administered by local, State and private organizations after 
designations by the Secretary of the Interior or the Secretary 
of Agriculture.
    H.R. 588 will amend the National Trails System Act of 1968 
to establish a new congressionally authorized trail category. 
National discovery trails, which will be extended contiguous to 
interstate trails, providing outstanding outdoor recreation and 
travel opportunities. The national discovery trails would 
intertwine national, cultural and historic resources and 
include metropolitan, urban, rural and back country regions of 
the Nation. The most unique provision of this new trail 
category is that there would be no Federal acquisition of land 
and administration would be bottom up, with local public 
involvement and local and State governments supporting the 
trails with only technical assistance to be provided by Federal 
agencies.
    Finally, H.R. 588 would designate the first national 
discovery trail, the 6,300-mile American Discovery Trail, which 
would extend through 15 States, from Cape Henlopen State Park 
in Delaware to Point Reyes National Seashore in California.
    H.R. 1513 would establish the Lincoln National Historic 
Trail in the State of Illinois as a component of the National 
Trails System to extend 350 miles from Lake Michigan to the 
Mississippi River, generally following the Illinois River and 
the Illinois-Michigan Canal Heritage corridor. This channel 
would promote Abraham Lincoln's legacy to Illinois and would 
emphasize the important, existing historic and cultural sites 
along the route. H.R. 1513 would also require an additional 
study to extend the Lincoln National Historic Trail down the 
Sangamon River from Beardstown to Springfield, Illinois.
    We look forward to the testimony that will be received this 
morning on these bills, and I will recognize Mr. Bereuter, the 
sponsor of H.R. 588, and Mr. Weller, the sponsor of H.R. 1513. 
Also, Mr. Pickett from Virginia is here to introduce the 
American Discovery Trail Society. But before I do that, I 
recognize my friend from Minnesota.
    [The statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    The Subcommittee on National Parks and Public Lands 
convenes this hearing to receive testimony on H.R. 588, the 
National Discovery Trails Act of 1997, and H.R. 1513, the 
Lincoln National Historic Trail Act.
    The first bill is H.R. 588, ``The National Discovery Trails 
Act of 1997,'' introduced by Mr. Bereuter and co-sponsored by 
many of our colleagues, would amend the National Trails System 
Act of 1968 (Public Law 90-543), by creating a new category of 
long-distance national trail, and authorizing the American 
Discovery Trail (ADT) as the first trail in this new category.
    The second bill is H.R. 1513, introduced by Mr. Weller to 
amend the National Trails System Act of 1968, by designating 
``The Lincoln National Historic Trail in the State of 
Illinois.''
    As we approach the 30th Anniversary of the National Trails 
System Act of 1968 we should reflect briefly on the impact this 
legislation has had. From the initial recognition of The 
Appalachian Trail in the Eastern United States and The Pacific 
Crest Trail in the Western United States, the National Trails 
System today encompasses over 37,000 miles of trails in 45 
states, consisting of 20 Congressionally designated national 
scenic and historic trails, administered by the National Park 
Service, the U.S. Forest Service and the Bureau of Land 
Management. In addition, there are over 800 recognized national 
recreation trails, that do not require Congressional 
authorization, which are administered by local, state and, 
private organizations, after designation by the Secretary of 
the Interior, or Secretary of Agriculture.
    H.R. 538 will amend the National Trails System Act of 1968 
to establish a new Congressionally authorized trail category, 
National Discovery Trails, which will be extended, continuous, 
interstate trails, providing outstanding outdoor recreation and 
travel opportunities. The National Discovery Trails would 
intertwine natural, cultural, and historic resources and 
include metropolitan, urban, rural and backcountry regions of 
the Nation. The most unique provision of this new trail 
category is that there is to be no Federal acquisition of land, 
and the administration would be ``bottom up'' with local public 
involvement and local and state governments supporting these 
trails, with only technical assistance to be provided by 
Federal agencies. Finally, H.R. 588 would designate the first 
National Discovery Trail, the 6,300 mile American Discovery 
Trail, which would extend through 15 states from Cape Henlopen 
State Park in Delaware to Point Reyes National Seashore in 
California.
    H.R. 1513 would establish the Lincoln National Historic 
Trail in the State of Illinois as a component of the National 
Trails System. The trail would extend 350 miles from Lake 
Michigan to the Mississippi River, generally following the 
Illinois River and the Illinois and Michigan Canal Heritage 
Corridor. The trail would promote Abraham Lincoln's legacy to 
Illinois and the Nation, and would emphasize important existing 
historic and cultural sites along the route.
    H.R. 1513 would also require an additional study to extend 
the Lincoln National Historic Trail down the Sangamon River 
from Beardstown to Springfield, Illinois.
    We look forward to the testimony that we will receive this 
morning on these bills, and I recognize Mr. Bereuter, the 
sponsor of H.R. 588, and Mr. Weller, the sponsor of H.R. 1513. 
Also, Mr. Pickett from Virginia is here to introduce Mr. Lukei 
of the American Discovery Trail Society.

    Mr. Vento. Thank you, Mr. Chairman. I would like to welcome 
the witnesses and especially our colleagues, Mr. Bereuter, Mr. 
Weller and others that are here to offer their support.
    I understand--earlier this session, Congressman Schaefer 
and I got together, and we have an informal group known as the 
Congressional Trails Caucus. This is a week in which there is a 
lot of focus of attention on these trails. Also, I understand 
there is a group in town this week concerned about other 
matters that have some impact on this.
    In any case, I would just like to point out to the 
Chairman, I think it is prudent to have hearings and to move 
forward the issue that the American Discovery Trail has been 
subjected to, an overall study, so we have the benefit of the 
Park Service views on this, and analysis; and that will be very 
helpful, if and when, and I hope we do move forward with it.
    I would just suggest that these trails are an increasingly 
important part of our recreational and cultural experience, Mr. 
Chairman, as you are well aware.
    I note that, in my community, I have been invited to speak 
before a religious group that is celebrating its 150th 
anniversary with regards to the beginning of a trip. I am 
referring, of course, to the Mormon experience, and their role 
in terms of our culture and our community and building our 
community. In any case, those trails have been designated; I 
think we see them as important.
    We have all sorts of opportunities for recreational trails. 
I myself use those types of trails extensively in and around 
our area. This weekend I was out biking for 40 miles on one of 
those. Yes, I made it back and forth, Mr. Chairman. In any 
case, I think they are going to play these green fingers and 
the opportunity to in fact use those resources as a very 
important aspect, as is the impact that these designations have 
on the adjacent lands and the impact, for instance, in terms of 
individuals' concerns about that, so we have to be cognizant of 
both.
    I think this offers the opportunity for true partnerships 
with State governments, local governments, in terms of 
providing recreational and the identification of cultural and 
historic resources; and I especially want to commend my 
colleague, Mr. Bereuter, who has been working on this for about 
5 or 6 years, for his continuity of interest and effort and 
want to support him and Mr. Schaefer, who is my cochairman, or 
cochair of this informal group known as the Trails Caucus. We 
want to work with folks, and I appreciate--and I think most 
do--the fact you focused on this hearing today.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. I appreciate the comments of the 
gentleman from Minnesota, and in my many years of serving on 
this committee with the gentleman from Minnesota, we have 
looked at a lot of trails. We did the Great Western Trail, 
extending from Mexico to Canada, up to the Rocky Mountains, and 
this is a very interesting thing we are doing in America at 
this particular time.
    The gentleman from Nebraska, Mr. Bereuter, we are 
privileged to have you here. We will hear from you first; then 
the gentleman from Illinois, Mr. here to have you here. We will 
hear from you first; then the gentleman from Illinois, Mr. 
Weller.
    The time is yours, sir.

   STATEMENT OF THE HON. DOUG BEREUTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Bereuter. Chairman Hansen, Congressman Vento, 
Congressman Jones, and members of the subcommittee, it is 
homecoming week for me. I spent my first two terms on this 
subcommittee. Although this is my first appearance as a witness 
in the Walter Jones Hearing Room, it must give you special 
satisfaction, Congressman.
    I would like to begin by thanking you very much for 
scheduling this hearing and giving me an opportunity to express 
the case for the passage of H.R. 588, the National Discovery 
Trails Act, which I reintroduced on February 5, 1997. I first 
introduced this legislation during the 104th Congress as H.R. 
3250.
    I would like to begin by stating that in an exceptional 
display of support, H.R. 588 has already attracted a bipartisan 
mix of more than 50 cosponsors--and I might say, this is 
without any effort or one-to-one, person-to-person lobbying on 
my part. These cosponsors represent both rural and urban 
districts and cover very diverse geographic areas. The list of 
cosponsors includes members from 19 States, American Samoa, the 
Virgin Islands and the District of Columbia.
    Mr. Chairman and colleagues, I believe it is easy to see 
why this legislation has attracted such widespread support. It 
represents the product of a true grass-roots effort and it is 
designed to provide a unique trail experience for millions of 
Americans. I believe that this legislation is a tremendously 
positive and exciting step forward in both the development and 
in the connection of trails in America.
    The bill contains two important components. First, it 
creates a new category of trails, designated as the National 
Discovery Trails. This new category will complete a missing gap 
in the current National Trails System by establishing a link 
between urban and rural trails. Second, the legislation will 
designate the American Discovery Trail--I will call it ADT--as 
the first trail in the new category.
    This trail, the ADT, was first proposed by the American 
Hiking Society and Backpacker magazine in 1989. In 1991, a 
scouting team hiked and biked its way across America, working 
with local citizen groups and local State and Federal land 
managers to map the route of ADT. Legislation enacted in 1992, 
Public Law 102-461, authorized a feasibility study for the 
trail, which the National Park Service completed in January of 
1996.
    The ADT is truly unique. It is the first trail to extend 
from coast to coast. It is also the first national trail 
designed to connect urban areas to wilderness areas. The 
designation of ADT, a multiuse trail, itself creates a national 
system of connected trails and links large cities and 
communities of all sizes across the Nation with majestic forest 
and remote desert landscapes. ADT also links such nationally 
known trails as the Appalachian and Pacific Crest Trails with 
numerous local trails across the United States. Along the way, 
it provides access to countless historic cultural and scenic 
landmarks.
    I introduced the House version of this bill because I 
believe that the ADT will provide outstanding family-oriented 
recreational opportunities for all Americans. It will serve as 
the transcontinental backbone for a growing National Trails 
System by linking together a variety of local, regional and 
national trails and making them more accessible. In addition, 
ADT will offer important economic development benefits to the 
communities along the route.
    States and communities are also justifiably excited about 
the increased tourism opportunities which the ADT will present 
and are asking to be included or want to know how they can hook 
on. In that regard, I have had several experiences in my own 
State of communities wanting to know how they can assure that 
they are a part of the trail. I received, for example, a letter 
from the mayor of York, Nebraska, my birthplace. Last year the 
city of York recognized the benefit of the ADT and took the 
initiative to request that the city be included on the route. I 
am pleased to say that their request was accommodated.
    I also clearly want to stress and stress again that the ADT 
takes into account private property concerns by routing almost 
all of the trail on public lands--mostly public road, highway 
rights of way. I understand that a private property rights 
advocate, Bill Theis, also will testify later this morning, and 
I would like to reassure him and everyone else that one of the 
basic principles on which the ADT has been developed has been 
to avoid routing on private property.
    The ADT is 6,356 miles long and almost entirely on public 
lands. As it is proposed, only approximately 58 miles of the 
route are located on private property and then only locations 
where there are existing rights-of-way or agreement with 
existing trails or by invitation. Private property rights would 
be fully protected through language in the bill which mandates 
that, quote, ``No lands or interests outside the exterior 
boundaries of federally administered areas may be acquired by 
the United States solely for the American Discovery Trail,'' so 
it doesn't provide eminent domain or opportunities, it simply 
does not raise this issue. And if that is raised because of the 
very straightforward reassurances to the contrary, I think you 
would understand that opposition in this respect would be a red 
herring.
    I would also like to take a moment to mention the 
importance of the ADT in my home State as one example of the 
impact across the country. In Nebraska, the trail passes 
through Omaha, Lincoln, Grand Island, Kearney, North Platte, 
Ogallala, and numerous small communities. Trails groups 
throughout the State have been energized by the ADT, since they 
have realized the important role they will play in this unique 
national trails initiative.
    Nebraska, of course, like many States, has a rich trails 
history, and I am pleased that the ADT gives trails enthusiasts 
the opportunity to explore the most popular and significant of 
the pioneer trails to the West Coast and the mountain region.
    The Mormon trail, I might say, I participated with some 
people re-creating the trip from eastern Nebraska, two 
locations, one in my district and one near it, across the 
State, all the way to the Salt Lake City region. They will be 
arriving there, Mr. Chairman; you can tell me exactly when, but 
I think it is in late July. I noticed the impact it had on 
schoolchildren along the way as they made a special effort to 
explain what was happening, what life had been like in this 
vast, uncharted prairie country 150 years ago; and people came 
back from Utah, for example, to commemorate people who lost 
their lives along the way. But this route in Nebraska takes the 
same course as the Mormon Trail, the Oregon Trail and the 
California Trail, as well as a Pony Express Trail and the route 
of the first transcontinental railroad.
    Additionally, I would highlight the trails effort by the 
city of Lincoln, Nebraska, in relation to ADT, they showed a 
high level of enthusiasm for the ADT, which has become the 
focal point for the city's trails programs. They received 
recently a great deal of fame and success in their trails 
effort, but I won't go into great detail, you have got that in 
the record.
    The city of Lincoln's example demonstrates, I think, the 
positive impact the ADT has had on communities through 
counterpart activities already. The community has worked hard 
to create an outstanding trail system, and it is clear these 
efforts were energized by the ADT.
    I think this is an appropriate opportunity to acknowledge 
and commend Mr. Reese Lukei, Jr., the ADT national coordinator. 
I understand he will also testify in front of this subcommittee 
for this legislation. From the beginning, Reese has been an 
energetic and tireless advocate for the ADT. His impressive 
efforts along with the American Hiking Society certainly raised 
awareness of the trail and support for it.
    The ADT is supported not only by the American Hiking 
Society, but also the National Parks and Conservation 
Association, American Trails, American Volkssport Association 
and numerous local trails organizations. I would also like to 
briefly mention two books about the ADT which have been 
published. I have them here. One is an explorer's guide, edited 
by Reese Lukei; and the other is a firsthand account of a 
journey along the trail written by Ellen Dudley and Eric 
Seaborg, members of the 1990-91 trail-scouting team who have 
submitted testimony for this hearing. These books describe the 
unique and fascinating qualities of the ADT.
    [The information can be found at the end of the hearing.]
    Mr. Hansen. Finally, I would conclude by mentioning that 
although the ADT is national in scope, this important trails 
project is made possible by grass-roots efforts on the State 
and local levels. Enactment of this legislation is critically 
needed in order for the ADT to achieve its outstanding 
potential. With the passage of this bill, we will help ensure 
the ADT will offer benefits for generations to come.
    I have not been on the entire 6,300 miles of the trail, Mr. 
Vento; I have been at both ends. But I think you have seen 
parts of it, and I have seen other parts of it and walked on 
them or biked on them, and this is an outstanding effort, I 
hope this committee will be able to advance.
    Thank you.
    Mr. Hansen. Thank you, Mr. Bereuter. We appreciate your 
testimony.
    [The statement of Mr. Bereuter follows:]

 Statement of Hon. Doug Bereuter, a Representative in Congress for the 
                           State of Nebraska

    Chairman Hansen, Delegate Faleomavaega, and Members of the 
Subcommittee: I would like to begin by thanking you very much 
for scheduling this hearing and giving me the opportunity to 
express the case for the passage of H.R. 588, the National 
Discovery Trails Act, which I re-introduced on February 5, 
1997. I first introduced this legislation during the 104th 
Congress as H.R. 3250.
    I would like to begin by stating that in an exceptional 
display of support, H.R. 588 has already attracted a bipartisan 
mix of more than 50 cosponsors. These cosponsors represent both 
rural and urban districts and cover very diverse geographic 
areas. The list of cosponsors includes Members from 19 states, 
American Samoa, the Virgin Islands and the District of 
Columbia.
    Mr. Chairman, colleagues, I believe it's easy to see why 
this legislation has attracted such widespread support. It 
represents the product of a true grassroots effort, and it is 
designed to provide a unique trail experience for millions of 
Americans. I believe that this legislation is a tremendously 
positive and exciting step forward in both the development and 
in the connection of trails in America.
    The bill contains two important components: First, it 
creates a new category of trails, designated as the National 
Discovery Trails. This new category will complete a missing gap 
in the current National Trails System by establishing a link 
between urban and rural trails. Second, the legislation will 
designate the American Discovery Trail (ADT) as the first trail 
in the new category.
    This trail was first proposed by the American Hiking 
Society and Backpacker magazine in 1989. In 1990-91, a scouting 
team hiked and biked its way across America, working with local 
citizen groups and local, state, and Federal land managers to 
map the route of the ADT. Legislation enacted in 1992 (Public 
Law 102-461) authorized a feasibility study for the trail, 
which the National Park Service completed in January 1996.
    The ADT is truly unique. It is the first trail to extend 
from coast-to coast. It's also the first national trail 
designed to connect urban areas to wilderness areas. This 
multi-use trail itself creates a national system of connected 
trails and links large cities with majestic forests and remote 
desert landscapes. The ADT also links such nationally noted 
trails as the Appalachian and the Pacific Crest trails with 
numerous local trails across the U.S. Along the way, it 
provides access to countless historic, cultural and scenic 
landmarks.
    I introduced the House version of this bill because I 
believe that the ADT will provide outstanding, family-oriented 
recreational opportunities for all Americans. It will serve as 
the transcontinental backbone for a growing national trails 
system by linking together a variety of local, regional and 
national trails and making them more accessible.
    In addition, the ADT will offer important economic 
development benefits to the communities along its route. States 
and communities are also justifiably excited about the 
increased tourism opportunities which the ADT will present and 
are asking to be included or want to know how they can ``hook 
on.'' In that regard, I would like to submit for the record the 
letter I received from the mayor of York, Nebraska. Last year 
the City of York recognized the benefits of the ADT and took 
the initiative to request that the city be included on the 
route. I am pleased to say that their request was accommodated.
    I also clearly want to stress and re-stress that the ADT 
takes into account private property concerns by routing almost 
all of the trail on public lands. I understand that a private 
property rights advocate, Bill Theis, will also testify later 
this morning and I would like to reassure him and everyone else 
that one of the basic principles on which the ADT has been 
developed has been to avoid routing it on private property. The 
ADT is 6,356 miles long and almost entirely on public lands.
    As it is proposed, only approximately 58 miles of the route 
are located on private property and then only in locations 
where there are existing rights-of-way or agreements with 
existing trails or by invitation. Private property rights would 
be fully protected through language in the bill which mandates 
that ``no lands or interests outside the exterior boundaries of 
federally administered areas may be acquired by the United 
States solely for the American Discovery Trail.''
    I would also like to take a moment to mention the 
importance of the ADT in my home state. In Nebraska, the trail 
passes through Omaha, Lincoln, Grand Island, Kearney, North 
Platte, Ogallala and numerous small communities. Trails groups 
throughout the state have been energized by the ADT since they 
have realized the important role they will play in this unique 
national trail initiative.
    Nebraska has a rich trails history and I am pleased that 
the ADT gives trails enthusiasts the opportunity to explore the 
most popular and significant of the pioneer trails to the West 
Coast--the Mormon Trail, the Oregon Trail and the California 
Trail--as well as the Pony Express Trail and the route of the 
first transcontinental railroad.
    Additionally, I would highlight the trails efforts by the 
City of Lincoln, Nebraska in relation to the ADT. Lincoln has 
shown a high level of enthusiasm for the ADT, which has become 
a focal point for the city's trails program. I am pleased that 
Lincoln's extensive trails efforts were recently rewarded. Last 
month, the American Hiking Society announced that Lincoln was 
chosen as a charter member of the Trail Town USA Hall of Fame. 
A panel of judges including representatives from USA Today, the 
American Society of Travel Agents, the U.S. Chamber of 
Commerce, the National Park Service, and the U.S. Bureau of 
Land Management, rated the City of Lincoln as the number seven 
community in the nation for trails. The judges based the awards 
on more than a dozen criteria including miles of trails, future 
plans, and volunteer and government support. Two other urban 
areas in this top ten list are also located on the ADT route.
    The City of Lincoln's example demonstrates the kind of 
positive impact the ADT has had on communities throughout the 
nation. The community has worked hard to create an outstanding 
trails system and it is clear that these efforts were energized 
by the ADT. Lincoln's strong commitment to the development of 
trails will continue to pay dividends in the form of increased 
tourism, economic development and recreational opportunities 
for its citizens.
    This is an appropriate opportunity to acknowledge and 
commend Mr. Reese Lukei, Jr., the ADT's national coordinator. I 
understand that he will also testify before the Subcommittee in 
support of the legislation. From the beginning, Reese has been 
an energetic and tireless advocate for the ADT. His impressive 
efforts, along with the work of the American Hiking Society, 
have certainly helped raise awareness about the trail and 
support for it.
    The American Discovery Trail is supported by not only the 
American Hiking Society, but also the National Parks and 
Conservation Association, American Trails, American Volkesport 
Association and numerous local trails organizations. I would 
also like to briefly mention two books about the ADT which have 
been published. One is an explorer's guide edited by Reese 
Lukei and the other is a firsthand account of a journey along 
the trail written by Ellen Dudley and Eric Seaborg, members of 
the 1990-91 trail-scouting team, who have submitted testimony 
for this hearing. These books describe the unique and 
fascinating qualities of the ADT.
    Finally, I would conclude by mentioning that although the 
ADT is national in scope, this important trails project is made 
possible by the grassroots efforts on the state and local 
level. Enactment of this legislation is critically needed in 
order for the ADT to achieve its outstanding potential. With 
passage of this bill, we will help ensure that the ADT will 
offer benefits for generations to come.
    Thank you for allowing me the opportunity to testify in 
support of H.R. 588.

   Letter to Hon. Doug Bereuter from Greg Adams, the Mayor of York, 
                                Nebraska

June 4, l997

Representative Doug Bereuter
2348 Rayburn, House Office Building
Washington, DC 20515
Dear Doug:

    Your continued support of the National Discovery Trail 
System and the American Discover Trail Route is to be 
commended.
    Completion of the American Discovery Trail Route in the 
York area would afford billing enthusiasts additional 
recreational opportunities and provide a direct link with 
larger population centers providing access to additional 
recreational facilities. Outdoor recreation interest, biking in 
particular, has grown tremendously in the York area in recent 
years and we believe this trend will continue into the 21st 
century
    The economic benefit resulting from users of the proposed 
trail system is difficult to project. However, it is with 
certainty that York and other communities along the American 
Discovery Trail Route will realize a positive economic impact. 
Users, and in some cases their support groups, will need food, 
lodging, and supplies as they enjoy this recreational 
experience.
    Again, we urge your continued support for the American 
Discovery Trail System.
    Very truly yours,
CITY OF YORK

Greg Adams,
Mayor

    Mr. Hansen. The Honorable Jerry Weller, we are grateful to 
have you with us.

    STATEMENT OF THE HON. JERRY WELLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Weller. Thank you, Mr. Chairman. I am also grateful for 
the hearing you are providing for H.R. 1513. I also want to 
thank Mr. Vento and Mr. Jones for the opportunity to be with 
you today and to testify on behalf of this legislation, which I 
feel is both an important and exciting initiative, a bill to 
designate the Lincoln Historic Trail, legislation that has 
earned bipartisan support in Illinois delegation.
    Before I go on, I would like to take an opportunity to 
recognize Leonard Lock, Chairman of the city of Ottawa Historic 
Preservation Commission, and one of those who, almost 20 years 
ago, was a pioneer, leading an effort to establish the 
Illinois-Michigan Canal Heritage Corridor through Illinois. Mr. 
Lock has taken his time to join us today to testify--and will 
be testifying later this morning--to be with us and share his 
knowledge and insight on Lincoln's history throughout Illinois 
and, of course, his reason for naming this particular trail 
after Abraham Lincoln.
    I would like to briefly talk about this bill, which would 
designate the Lincoln National Historic Trail as a component of 
the National Trails System. This trail would consist of a 350-
mile stretch generally following the Illinois River and the 
Illinois-Michigan Canal Heritage Corridor. The trail would 
begin at the Chicago Portage National Historic site and 
conclude at the Lewis and Clark Trail at Wood River.
    My legislation resulted from a feasibility study conducted 
by the National Park Service. The Park Service was directed by 
Congress to determine the feasibility and desirability of 
establishing the ``Illinois Trail'' as a National Scenic or 
National Historic Trail. I should mention here that my 
legislation changes the name from ``Illinois Trail'' to 
``Lincoln Trail,'' but it is the exact same trail that was 
studied. The Park Service concluded the proposed trail met the 
criteria for both national historic trails and national scenic 
trails, but that a historic trail would be most feasible.
    As I mentioned, the trail would generally follow the 
Illinois River and the I&M Canal. The Illinois River was used 
for commerce and transportation during Lincoln's day, although 
French settlers were using it for trade long before Lincoln's 
time. As a matter of fact, Abraham Lincoln, while serving as a 
State legislator, was a proponent of building the canal between 
the Chicago River and the Illinois River at LaSalle, which was 
a major navigational improvement that helped position Chicago 
as a major economic center, which it has since become and 
achieved that goal.
    There would be interpretive sites along the trail of 
historical significance. For instance, the trail would go 
through Ottawa, Illinois, the site of the first of the famous 
Lincoln-Douglas debates. Others include the old Beardstown 
courthouse, which is the only remaining courtroom where Abraham 
Lincoln practiced law.
    I also might note that the studies show that this route 
comes at a very low cost with little land acquisition and is 
the route preferred by the State of Illinois according to the 
Park Service study.
    The Park Service would develop and manage access areas and 
facilities to allow recreational boating on the historic 
waterway. The Park Service would be responsible for 
administration of the trail and would work with the Illinois 
Department of Natural Resources to coordinate trail facility 
development, as well as areas for picnicking and camping. 
Designation of the ``Lincoln National Historic Trail'' would 
increase tourism, conservation and recreation while reinforcing 
Abraham Lincoln's contributions to our Nation's history.
    Creation of the Lincoln National Historic Trail will bring 
history and nature enthusiasts to the region for biking, 
camping, boating and other recreational activities. This 
increased tourism will improve local economies along the route. 
The folks that come to visit the Lincoln Trail will eat in 
local establishments, stay in local hotels, and patronize local 
establishments to rent and purchase skates, cycling equipment 
and other items. A U.S. Department of Interior study on the 
Impact of Rails-to-Trails found the average trail user spent 
between $4 and $11 a day, generating an annual impact of $1.2 
million or more. Due to the length of the length of the trail, 
we would expect this number to be much higher. This plan is 
great for economic development throughout the State of 
Illinois.
    There is some evidence that having a trail such as this 
adjacent to property will increase its value. The survey of 
real estate agents completed on a similar trail in Washington 
State revealed that property near the trail sells for an 
average of 6 percent more.
    To summarize, my legislation, H.R. 1513, would designate 
the proposed ``Illinois Trail'' as a national historic trail, 
while changing the name to the Lincoln National Historic Trail. 
I have also included a provision that requests a study of an 
extension of the trail along the Sangamon River from Beardstown 
to Springfield. This would be a water-based route and would 
emphasize important historic and cultural sites along the 
river, ending at Springfield, Abraham Lincoln's hometown.
    Finally, I would like to express my support for the other 
piece of legislation the committee is looking at today, the 
American Discovery Trail, a bill by Congressman Bereuter. I am 
pleased to endorse his initiative.
    I ask for your support, and I also want to thank you for 
this hearing today and the opportunity to present this 
legislation.
    Mr. Hansen. Thank you for your testimony.
    [The statement of Mr. Weller follows:]

 Statement of Hon. Jerry Weller, a Representative in Congress from the 
                           State of Illinois

    Mr. Chairman and Members of the Subcommittee:
    Thank you for having me here today to talk about a very 
exciting piece of legislation--a bill to designate the Lincoln 
National Historic Trail. Before I go on, I would like to 
recognize Leonard Lock, Chairman of the City of Ottawa Historic 
Preservation Commission, who has taken his time to come out to 
Washington to be with us today and share his knowledge and 
insight on Lincoln history throughout Illinois. Mr. Lock will 
present his testimony shortly.
    I would like to briefly talk about this bill, which would 
designate the Lincoln National Historic Trail as a component of 
the National Trails System. This trail would consist of a 350 
mile stretch generally following the Illinois River and the 
Illinois and Michigan Canal Heritage Corridor. The trail would 
begin at the Chicago Portage National Historic site, and 
conclude at the Lewis and Clark Trail at Wood River.
    My legislation resulted from a feasibility study that was 
conducted by the National Park Service. The Park Service was 
directed by Congress to determine the feasibility and 
desirability of establishing the ``Illinois Trail'' as a 
National Scenic or National Historic Trail. I should mention 
here that my legislation changes the name from ``Illinois 
Trail'' to ``Lincoln Trail,'' but is the exact same trail that 
was studied. The Park Service concluded that the proposed trail 
met the criteria for both national historic trails and national 
scenic trails, but that an historic trail would be most 
feasible.
    As I mentioned, the trail would generally follow the 
Illinois River and I&M Canal. The Illinois River was used for 
commerce and transportation during Lincoln's day, although 
French settlers were using it for trade long before Lincoln's 
time. As a matter of fact, Abraham Lincoln, while serving as a 
state legislator, was a proponent of building the canal between 
the Chicago River and the Illinois River at LaSalle, which was 
a major navigational improvement that helped to position 
Chicago as a major economic center. There would be interpretive 
sites along the trail that have historical significance. For 
instance, the trail would go through Ottawa, Illinois--the site 
of the first of the infamous Lincoln-Douglas debates. Other 
historical sites include the old Beardstown Courthouse, which 
is the only remaining courtroom where Abraham Lincoln practiced 
law.
    The Park Service would develop and manage river access 
areas and facilities to allow recreational boating on the 
historic waterway. The Park Service would be responsible for 
administration of the trail, and would work with the Illinois 
Department of Natural Resources to coordinate trail and 
facility development, as well as areas for picnicking and 
camping. Designation of the ``Lincoln National Historic Trail'' 
would increase tourism, conservation, and recreation while 
reinforcing Lincoln's contributions to our nation's history.
    Creation of the Lincoln National Historic Trail will bring 
history and nature enthusiasts to the region for biking, 
camping, boating and other recreational activities. This 
increased tourism will improve local economies along the route. 
The folks that come to visit the Lincoln Trail will eat in 
local establishments, stay in local hotels, and patronize local 
establishments to rent or purchase skates, bicycling equipment 
and other such items. A U.S. Department of Interior study on 
the Impacts of Rails-to-Trails found that the average trail 
user spent between $4 and $11 per day, generating an annual 
impact of $1.2 million or more. Due to the length of the 
Lincoln Trail, we could expect this number to be much higher. 
This plan is great for economic development throughout the 
state of Illinois. There is some evidence that having a trail 
such as this adjacent to property will increase its value. A 
survey of real estate agents completed on a similar trail in 
Washington State revealed that property near the trail sells 
for an average of 6 percent more.
    To summarize, my bill, H.R. 1513, would designate the 
proposed ``Illinois Trail'' as a national historic trail, while 
changing the name to the ``Lincoln National Historic Trail.'' I 
have also included a provision that requests a study of an 
extension of the trail along the Sangamon River from Beardstown 
to Springfield. This would be a water-based route, and would 
emphasize important historic and cultural sites along the 
river, ending at Springfield, Abraham Lincoln's birthplace.
    Finally, I would like to express my support for the other 
piece of legislation we are looking at today, the American 
Discovery Trail bill by Congressman Bereuter. I am a co-sponsor 
of this legislation, and am pleased to lend my support. I urge 
the Committee to move favorably and approve H.R. 1513, to 
designate the ``Lincoln National Historic Trail.''

    Mr. Hansen. The gentleman from Minnesota, do you have 
questions for our colleagues?
    Mr. Vento. Mr. Chairman, with regards to Mr. Weller's 
legislation, I haven't examined the study, but there is this 
nomenclature issue with regards to what best description 
occurs; and the gentleman sitting next to you represents 
Lincoln, Nebraska, so the name gets used often, so I think you 
ought to think long and hard about that.
    I asked the staff, Rick Healy on the Minority side--and I 
think the issue is, if you want to attach Lincoln's name, you 
might want to talk about the canal as being the Lincoln Canal 
and try to keep nomenclature accurate with regards to the 
Illinois Trail, because it does follow the river. So I would 
suggest that as an alternative; it isn't enough, but I think 
you want to be accurate with regards to how you designate that.
    My colleague from Nebraska has put forth and been working--
I said 5 years, and I guess it has been 8 years you have been 
working on this particular proposal; and it is a very ambitious 
proposal in terms of its length and breadth in covering the 
Nation. Later we are going to hear some corrections from the 
Park Service about this, and they are going to discuss some of 
the conflicts that are inherent.
    I sponsored this bill with you, I think it is important 
enough, although it is a generic change to the basic trails 
legislation with regards to motorized use, in order to avoid or 
at least keep this tied together. I haven't looked at this in 
as much detail as I should have, Congressman Bereuter, but what 
segments, or how many miles? Have you separated any of the 
mileage out in terms of how much would be motorized and how 
much would not be motorized?
    Mr. Bereuter. No, I don't know the answer to that. Perhaps 
one of the witnesses involved in the initial pioneer scouting 
trail will. I would say that the predominant amount of the 
6,000-plus miles are on rights-of-way, existing rights-of-way, 
but of course there are a number of areas it does cross State 
parks or national forests, and those oftentimes do not follow.
    Mr. Vento. I think it is a good concept to tie together 
national lands and State parks and other units along the way 
that give people the experience.
    At the end of this, you said you hadn't covered it all, but 
I suppose when you run for President, this will be one of your 
commitments, to in fact entirely tread this trail, or at least 
bike it part way.
    Mr. Bereuter. I am more realistic, I hope, about the 
opportunity to pass this legislation than I am about any 
intention to run for President, I think.
    Mr. Weller. May I respond to Mr. Vento's question regarding 
the nomenclature?
    Mr. Hansen. Surely.
    Mr. Weller. Illinois, we are very proud to call, ``The Land 
of Lincoln'' and of course, other than--we recognize he was 
born in Kentucky, but he spent his entire professional life, 
other than while he served briefly in the Congress and while he 
served as one of our Nation's greatest Presidents, in Illinois.
    This trail would start in Chicago where Abraham Lincoln was 
nominated for President, and I just think, when you think of 
Illinois, you think of Abraham Lincoln; and that is why we feel 
it is an appropriate name for a national trail.
    Mr. Vento. This is a pristine logic, Mr. Chairman. I would 
just suggest, I think there are two separate sites; there is 
the homestead site for Lincoln in Illinois, in Springfield, but 
there is another site as well.
    In any case, I think in terms of the public's looking at 
these, they expect it may bring those together or actually have 
a connection with, for instance, Kentucky; which I think makes 
the point that I am trying to, you know, in terms of 
communicating this to those that understand the history better 
than I, and as well as you, Mr. Weller.
    In any case, I would offer it as a way of, you know, 
recognizing where his role was significant in terms of the 
establishment of the Michigan-Illinois Canal, the Heritage 
site, and obviously you would accomplish both goals, and you do 
it in such a way as to be consistent and so operating isn't 
obviously a big point.
    Mr. Weller. And I am most anxious to work with you in a 
bipartisan manner, and I appreciate that.
    Mr. Vento. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    The colleague from Nebraska, I often wonder, at the 
National Governors Conference--the counties, the mayors--any 
support or comment or objection to your bill? Do any of these 
groups come forth?
    Mr. Bereuter. I have not received comments from them on it 
one way or the other. There have been news articles lately in 
some of the national publications, which indicate support from 
individual governors and, of course, wide numbers of mayors. I 
have had no one contact me in my own State in a negative sense, 
either public official or nonpublic, but I don't believe that 
any of the national associations of public officials of various 
varieties have taken a position on it one way or the other. 
Perhaps I am more delinquent in not asking them to do that.
    Mr. Hansen. You have kept them aware and apprised of what 
is going on, and so far you have had no comments?
    Mr. Bereuter. That is correct.
    Mr. Hansen. In your testimony, you make a point of the 
idea, it would not acquire private land or any private 
property. Do you intend that that would occur anywhere? I mean, 
this is the most ambitious trail I have ever looked at, and I 
wonder if you envisioned any of that occurring along the line.
    Mr. Bereuter. As you know, there are only 58 miles that are 
not now on public rights-of-way or public lands, and those have 
existing agreements that have been acquired at this point. My 
view is that the only real source of opposition to this 
legislation could come from people that are concerned about the 
taking of private property, and so I simply wanted to set aside 
that issue, because the people who have worked with me over a 
period of time have indicated it is not necessary to have an 
opportunity for eminent domain, and in fact, they go beyond 
that and say we do not anticipate nor want the right, under the 
legislation, to acquire private property, even from willing 
sellers. Fifty-eight miles in 6,300 is such an insignificant 
amount, and there is no reason, of course, why one needs to 
have it all on public land as long as you have arrangements 
with the owners of the 58 miles.
    Mr. Chairman and members of the subcommittee, I would say 
this. You may have noticed that the legislation, which 
prohibits the acquisition of private land, does not apply to 
the category of trails being created, only to the American 
Discovery Trail itself; and I would leave to your judgment, as 
a trail-by-trail consideration of future legislation, whether 
or not you wanted to prohibit the acquisition of private land 
on new trails that might be added under this category.
    But I simply did not want to face that difficulty, because 
I don't think it is essential to the success of this trail, and 
I didn't want to have that raised as an argument against this 
particular trail, the American Discovery Trail. But you will 
have the judgment in the future, unless you would prefer to 
change the legislation and make the prohibition a categoric one 
that would apply to future trails.
    Mr. Hansen. I have noticed, in the little bit I have seen 
of your legislation, a lot of it is contiguous to interstates, 
State roads, areas such as that. They are constantly changing 
interstates or adding lanes and they are changing direction. 
Does that give you any concern at all? Do we have a conflict 
anywhere with that?
    Mr. Bereuter. We think that there needs to be an ongoing 
effort on the part of the nonprofit organization in working 
with the National Park Service, and of course, the Department 
of Transportation and its State equivalents, to modify the 
trail in the future as the specific route changes, because 
there is a right-of-way change. Generally those changes would 
be modest, it would seem, especially in the part of the 
country--you have a heavy roads system with lots of county 
roads in my part of the country, of course, on a square-mile 
basis. But in some parts of the country, like your own, there 
aren't that many alternatives in the more sparcely settled 
parts of the Nation west of you.
    So I do think you need to have an ongoing effort as roads 
change, as rights-of-way are selected--for the route might 
change modestly, I would think--to redesignate that particular 
2- to 5-mile, 10-mile stretch, whatever it might be.
    Mr. Hansen. On the Great Western Trail, we hooked up 
existing trails; we put signs up saying, ``This is the Great 
Western Trail.'' To this day, it isn't completed, but it starts 
in Mexico, and parts are motorized, there are parts of only 
walking trails. I guess we can take animals on most of them. 
Most of this is done by volunteers who have volunteered their 
time----
    Mr. Bereuter. That is correct.
    Mr. Hansen. [continuing] and have spent an awful lot of 
time improving the trails and have worked with local 
governments. It really hasn't cost the Federal Government much 
money at all. What do you anticipate, cost-wise, on this?
    Mr. Bereuter. The Park Service at this point would indicate 
that the comprehensive plan developed by the nonprofit 
organization, which would be presented to you and your 
equivalent in the other body, would cost $360,000; then the 
annual cost is estimated to be $200,000 for signing and the 
relatively small amount of maintenance that relates to the 
trail.
    So we are obviously talking about a trails enthusiasts' 
volunteer effort. If they are talking about--only about that 
amount of signing, you know that doesn't go very far. I do 
think, as you probably were noting yourself, that the 
refinement of a trail, through the markings and through the 
development of it, is an ongoing process.
    I am very proud of the fact that the Lewis and Clark Trail, 
basically a water trail, passes on the boundary of my State; 
and some time ago, with the help of this committee, I gave some 
incentives for local groups to designate all of the Lewis and 
Clark campgrounds. But again, the markers or the kiosks or the 
outlooks that were developed on public land, that had a lot of 
volunteer effort as well; and that effort is not complete in 
the surrounding States.
    I think our State is ahead in marking all the campgrounds, 
but it has provided, incidentally, an opportunity for people in 
my State and from elsewhere around the country to actually 
retrace the Lewis and Clark expedition with excerpts from the 
journal for that day on the signs that are erected; and it is 
done in a fashion that is consistent with the logo that was 
established by the National Park Service, so that ultimately, 
it will tie the whole effort to at least some degree of 
similarity in marking.
    Mr. Hansen. I have noticed our colleague from Virginia, Mr. 
Pickett, hasn't arrived.
    Mr. Vento. Just a brief question for Mr. Bereuter. One of 
the concerns expressed by the Park Service is the exemption 
from the American Discovery Trail from two sections, and while 
one authorizes the acceptance of donations in collaboration, 
through cooperative agreements, the other authorizes land 
exchanges to protect national trails. These provisions, both of 
which would be voluntary in this--you know, someone conveying 
land or an easement or voluntarily entering into a cooperative 
agreement, or a land exchange, where you have a conflict with 
the Park Service or the Department of Interior, could 
accomplish that.
    I take it your--you did this consciously, you left these 
out because you are concerned about not having any authority in 
here for gaining additional land within the context of it. But 
it seems to me--I understand the good faith you are trying to 
show, and even in spite of this, you are--concerns are being 
raised; but do you understand, my concern is that it seems to 
me that these tools are important administrative tools, 
especially for the length and breadth of the trail, so I hope 
we can work out something, notwithstanding that.
    You are being criticized today in spite of the fact you 
have done this, but I just think those are reasonable tools 
that I think the Park Service needs in this instance, 
especially considering the length, because you can avoid 
problems by using those tools.
    Mr. Bereuter. Mr. Vento, I knew of the concerns of the Park 
Service, but in an abundance of caution, we took this step to 
try to avert any kind of legitimate criticism about expansion 
of public lands and a concern that local governmental units 
might lose tax base. You will, of course, have the judgment on 
that issue. I certainly don't see anything wrong with donating 
funds, but when you donate land, you are back in a controversy. 
And I would just point out, once again, page 5, line 8, those 
three subsections that are exempted in this legislation do not 
apply to the category, you may have noticed, but it applies 
only to this trail, this ADT; it does not apply to the category 
being established.
    Mr. Vento. Of course, the issue here is some can be 
purchased by nonprofits; we don't have any control over that, 
so I think continuity would make some sense. If this were, I 
suppose, threshold questions with regards to what the impact 
would be, I would say in a rural county, you could have a 
donation of easement that might diminish the land value or do 
other things, I don't know, but it seems to me in terms of 
trying to avoid conflict and provide the type of experience and 
the meaningful designation that you have been advancing--but I 
understand your concern. I just wanted to make the observation 
with regards--because I think some of us would try to 
administer things, where we have such limited options makes it 
difficult to accomplish the goals we are trying to achieve, and 
I think you can understand what I am saying.
    Mr. Bereuter. I do.
    Mr. Hansen. You know, there is nothing easy in the world, 
especially in Congress, but we will work things out as we go 
along. I am sure there will be additional questions. In my 
mind, I am wondering about rights-of-way, gas lines, power 
lines, all of those things. I don't think we have ever done 
anything easy around here, have we?
    Mr. Vento. Not when it is 6,000 miles.
    Mr. Hansen. But I do appreciate our two colleagues giving 
their excellent testimony and the very tantalizing and 
intriguing proposals you have put before this committee. Thank 
you for being here. I wish Mr. Pickett could have been with us. 
We will take his testimony, however. We will excuse you and 
turn to our first panel.
    Our first panel is Katherine Stevenson, Associate Director, 
Cultural Resources, Stewardship and Partnership, for the 
National Park Service. We are always grateful to have Katherine 
Stevenson with us. And Robert C. Joslin, Deputy Chief of the 
U.S. Forest Service. If those two would come up.
    I hope you are all right. Can you suffer through this?
    Ms. Stevenson. Yes, sir. I had thought of telling you that 
this was the result of a climbing accident or something of the 
like, but I thought it wouldn't be best to lie to Congress.
    Mr. Hansen. I can understand that. I always like to make it 
a skiing accident and tell somebody; I really say, I fell down 
some stairs or something.
    Anyway, can both of you handle 5 minutes or what time do 
you need? Is 5 minutes adequate? OK. You know the rules; just 
like a traffic light.
    We invite both Mr. Weller and Mr. Bereuter to come up if 
they feel so inclined.
    Ms. Stevenson. Would you like me to testify on both H.R. 
588 and H.R. 1513 at the same time.
    Mr. Hansen. If you wouldn't mind. Do you need a few more 
minutes, maybe 10 minutes?
    Ms. Stevenson. No, I don't need that much time.
    Mr. Hansen. Why don't we give you 7, because I think you 
are probably going to need the time. I know how good you are at 
this; you are an old hand at it. We will go ahead and recognize 
you at this time

   STATEMENT OF KATHERINE H. STEVENSON, ASSOCIATE DIRECTOR, 
CULTURAL RESOURCES, STEWARDSHIP AND PARTNERSHIP, NATIONAL PARK 
                            SERVICE

    Ms. Stevenson. Thank you, Mr. Chairman. I will submit the 
full testimony for the record if you would be so kind.
    On H.R. 588, the National Park Service strongly supports 
enactment, if amended, as proposed in our testimony. As several 
witnesses before me have pointed out, the bill establishes a 
new category of long-distance trails, the national discovery 
trails, and also authorizes the American Discovery Trail as the 
first national discovery trail.
    The National Park Service has been involved in this for a 
number of years, since 1990 when the ADT was proposed. In 1992, 
Congress directed a feasibility study, which we completed in 
December of 1995 and submitted to Congress in 1996. The trail 
proposed, as you have pointed out, extends over 6,000 miles and 
the criteria described in the bill will further the goals of 
the National Trails System by incorporating a variety of cities 
and towns and will increase public access to the trails system. 
The primary management responsibility will be with a strong 
partner and then with us, and we believe very strongly that the 
partner should be there from the beginning and have a major 
role in the development, as well as the designation, as has 
been the case.
    The trail largely uses existing trails and trail systems, 
and you have heard a fair amount of testimony already, that 
only a handful of private parcels will be authorized, or will 
be involved, and that an underlying trail exists already, as do 
voluntary agreements with those private property owners.
    On the ever-present issue of cost, the details will be in 
the comprehensive management plan. The feasibility study said 
the comprehensive management plan itself would cost $360,000 
over the course of several years and that our estimated 
operating costs would be about $400,000 per year. I refer you 
to the proposed amendments in our testimony, pages 6 through 9, 
and I won't address those individually unless you wish.
    In H.R. 1513, Interior supports the designation, but not 
the name or the focus on Lincoln. This bill would again amend 
the National Trails System Act by adding another national 
historic trail called the Lincoln National Historic Trail and 
designating a study trail that would extend the Lincoln Trail. 
In large measure, this proposal is the trail proposed in the 
feasibility study called the Illinois Trail that was 
transmitted to Congress by the National Park Service in 1991. 
The study itself was conducted from 1984 to 1987, so the study 
is some 10 years old.
    We found the trail to be nationally significant for its 
historic and prehistoric use as a commerce and transportation 
corridor. While Abraham Lincoln has a connection, as has been 
pointed out earlier, to the Illinois and Michigan Canal portion 
of the trail and perhaps some other portions, we would argue 
the national significance lies in its role in the development 
of trade, commerce and transportation, as well as exploration, 
migration and settlement, so a much broader significance than 
that of Lincoln alone.
    It may well be that a trail directly associated with the 
life of Lincoln is appropriate, but we have not yet studied 
this issue and could not support this named designation. 
Consequently, we recommend that the trail on the Illinois River 
and waterway route be designated as the Illinois Trail, and the 
additional study route be deleted until it could be part of an 
entire Lincoln proposal to be made at a later date.
    Thank you very much for considering our comments. We look 
forward to answering any questions you may have.
    Mr. Hansen. Thank you. We appreciate your comments.
    [The statement of Ms. Stevenson can be found at the end of 
the hearing.]
    Mr. Hansen. Mr. Joslin, we will turn the time to you.

   STATEMENT OF ROBERT C. JOSLIN, DEPUTY CHIEF, U.S. FOREST 
                            SERVICE

    Mr. Joslin. Thank you, Mr. Chairman and members of the 
subcommittee. Thanks for inviting us to come and share our 
views on H.R. 588, the National Discovery Trails Act of 1997. I 
brought with me Lyle Laverty, Director of Recreation, Heritage 
and Wilderness Resources in the Forest Service. As stated, my 
complete statement has been submitted for the record, so I will 
summarize that statement and then will be glad to answer 
questions from you and members of the subcommittee.
    The Department of Agriculture does not object to the 
creation of a new category of trails as proposed by H.R. 588, 
the National Discovery Trails Act of 1997. You have already 
heard the background on the American Discovery Trail from Mrs. 
Stevenson, so I will not repeat it. The National Trails Systems 
Act consists of eight national scenic trails, 12 national 
historic trails and over 800 national recreation trails. The 
Forest Service is responsible for the overall management of 
more than 125,000 miles of trails in the national forest 
system.
    Trails are a key ingredient to wonderful outdoor, 
recreational and scenic experience, which is why over 30 
million recreation visitor-days are spent each year in trails 
in the national forests. The success of long distance trails, 
such as the American Discovery Trail, is dependent on strong 
State and local support in conjunction with public and private 
partners. Working cooperatively through partnerships and 
volunteer groups, as stated in the National Trails Systems Act, 
would be essential elements of the success of the American 
Discovery Trail.
    We wish to raise two concerns with regard to planning and 
administering the American Discovery Trail, as stated in H.R. 
588. The first point deals with the comprehensive management 
plan. Section 2(c) of the bill would require that the 
administering Federal agencies shall enter into arrangements 
with a competent, trail-wide, nonprofit organization to submit 
a comprehensive plan.
    It is unclear who has the ultimate responsibility for 
preparing and transmitting the comprehensive plan to Congress. 
Nonprofit organizations are not responsible to the public or 
the Congress for consistency with other trail management 
policies. Allowing non-Federal organizations to be held 
responsible for land management decisions made in the 
comprehensive plan also raises concerns under the Federal 
Advisory Committee Act. We recommend that the bill be amended 
to provide that the comprehensive management plan would be 
prepared by the administering Secretary in consultation with 
the management entity and that the secretary would submit the 
plan to Congress.
    Our second concern deals with how the trail would be 
administered. H.R. 588 requires the administering Secretary to 
cooperate with a--quote, a, unquote, competent trail-wide 
nonprofit organization. This presumably implies that only one 
nonprofit organization will be involved in the administration 
of the 6,000-plus mile trail. We believe this is unduly 
restrictive.
    We recommend changing the bill to include one or more 
private non-Federal entities, which would then provide the 
opportunity to optimize the benefits to the public and build 
collaborative stewardship among the public, the nonprofit 
organizations and the Federal Government.
    This concludes my statement, Mr. Chairman, and I will be 
glad to take any questions you might have.
    Mr. Hansen. Thank you very much.
    [The statement of Mr. Joslin can be found at the end of the 
hearing.]
    Mr. Hansen. The gentleman from Minnesota.
    Mr. Vento. Thank you, Mr. Chairman. I note with interest 
the testimony from Mr. Joslin, the Deputy Chief, and I 
appreciate the testimony. I refer specifically to page 4, Mr. 
Chairman, where he comments about the relationship between the 
nonprofit and the Park Service and Forest Service.
    Mr. Joslin, Deputy Joslin, would you suggest there ought to 
be more clarification here, that the Park Service and Forest 
Service ought to be in a coordinating role of more than one 
nonprofit, so they--is that your suggestion here?
    Mr. Joslin. No, sir. The suggestion there--the Park Service 
would have the administration over this, but the suggestion 
there is that we include language which would not specifically 
say, one, which is somewhat limiting, although the language may 
encompass that now. We believe it should be clarified.
    Mr. Vento. Director Stevenson, how many nonprofits work on, 
for instance, the Appalachian Trail? Isn't there a multiple 
number?
    Ms. Stevenson. Yes, sir, there are many, many nonprofits 
that work on it. Our experience has been if you have a single 
group, who is the lead group, that it makes it significantly 
easier for us to work with them, and it is their responsibility 
to work cooperatively with the smaller groups and get them 
together to have a single opinion.
    Mr. Vento. You differ with the Forest Service testimony 
here?
    Ms. Stevenson. It is a difference of opinion, yes, sir.
    Mr. Vento. Mr. Joslin, does the Forest Service have any 
nonprofit groups that they work with?
    Mr. Joslin. Yes, we do, and in connection with the ATC, we 
agree with the way that works, but there are--the language in 
there, all we are saying is, if you have the language as it is 
now, perhaps you might not be able to incorporate----
    Mr. Vento. You are saying you can do one if you want to do 
one, but you ought to have the flexibility, is what you are 
saying, so there would be no objection to that?
    Mr. Joslin. That is correct.
    Mr. Vento. Director Stevenson.
    Ms. Stevenson. Actually, we would have an objection. We 
feel very strongly there needs to be a lead group.
    Mr. Vento. But you can select or not select the lead group.
    Ms. Stevenson. That leaves you with the position of 
choosing among them, and if there is a lead group that has to 
be formed from a larger group, they among themselves decide who 
the lead group is and agree upon a method of dealing with us. 
Otherwise, you have enormous difficulty in relating to a large 
number of people.
    Mr. Vento. I think the concern is, at the end of the day, 
it is a coordinating role, and if in fact the designated 
nonprofit were not to be performing, there ought to at least be 
the recognition that the Forest Service or the Park Service can 
in fact work with the individuals. I realize it is more 
difficult to do in that vein, but I don't know that there have 
been--I guess there have been some problems with regards to the 
Appalachian Trail; is that correct?
    Ms. Stevenson. No, the Appalachian Trail has worked out 
very well with a single coordinating group.
    Mr. Vento. Has that--is it designated in the law, per se?
    Ms. Stevenson. I don't believe so.
    Mr. Vento. If it is worked out, I don't understand what the 
concern is about the added flexibility being added here. If you 
can do it without the designation in law, why would you want to 
limit your flexibility?
    Ms. Stevenson. Our experience was that that was come to 
after a long and arduous journey. There were many times there 
were significant differences of opinion. All we are trying to 
suggest is that we could circumvent some of those problems by 
saying up front that the groups would choose a single 
representative to represent all of them and then we would have 
one relationship, rather than many.
    Mr. Vento. In any case, I think an important point was made 
here when it was indicated that a significant number of 
volunteers helped maintain and do a significant number of tasks 
that relate to enhancing the quality of the trails, that the 
Forest Service and the Park Service both have had significant 
volunteer efforts to maintain the trails, is that correct.
    Ms. Stevenson. That is correct.
    Mr. Vento. And I see Mr. Joslin is nodding his head too. 
Unfortunately, we are on an audio system.
    Mr. Joslin. Yes.
    Mr. Vento. With regards to the language I referred to, with 
donations of easements, you obviously favor not having that 
language in the bill that is in the bill now, the limitations 
on donations and cooperative agreement.
    Ms. Stevenson. We feel it would be very advantageous for us 
to have the ability to use every tool at our disposal to make 
this trail work and therefore they should be included as 
options for us.
    Mr. Vento. To what extent--in terms of this cooperative 
agreement and conveying to the nonprofits the responsibility 
here, to what extent would the Park Service or Forest Service 
be involved in dealing with, for instance, State parks or State 
trails or other national units that might be--for instance, 
BLM, wouldn't the Park Service or Forest Service need to be 
involved at that particular point and work very closely in 
order to gain the confidence of those groups in providing 
easements and working with you and signing?
    Ms. Stevenson. I think I understand your question. We would 
cooperate with other Federal agencies and with State parks to 
the fullest extent along the trail.
    Mr. Vento. You both spoke of the fact of the comprehensive 
plan, but who in the end would be responsible for preparing and 
submitting the comprehensive plan?
    Ms. Stevenson. The National Park Service in this case.
    Mr. Vento. Even though the work would be done by the 
nonprofit group, I assume most of this is in here in this way 
to avoid the cost concerns; and if it were, I suppose, under a 
different period of time, we might look at it differently. The 
private group, would they have to comply with, for instance, 
all the environmental laws, like NEPA.
    Ms. Stevenson. We would prepare such a plan in cooperation 
with them and assure that all the appropriate laws were met. 
Then we would be the one who actually had to submit it, that is 
the process we choose now.
    Mr. Vento. You would have to go through NEPA yourself.
    Ms. Stevenson. We would meet all Federal laws.
    Mr. Vento. You used NEPA for the study, didn't you.
    Ms. Stevenson. I believe so.
    Mr. Vento. The question I would ask Mr. Bereuter, do you 
know what the breakdown is in terms of the motorized miles on 
the 6,000-mile trail.
    Ms. Stevenson. Actually, it is in the report itself.
    Mr. Vento. I will look in there then, if you don't know it 
off the top of your head, because my light has been on for a 
minute.
    Mr. Joslin. Sixty-five percent of it is either paved or 
graveled.
    Mr. Vento. What does that mean? I mean, for instance, the 
trail I bike on is paved, this long trail that I do in the 
gateway, isn't necessarily motorized though.
    Ms. Stevenson. And we may not have that detail. Page 20 of 
the report has the trail statistics for paved, gravel, and 
trails and sidewalk.
    Mr. Vento. Even though it is paved or gravel doesn't mean--
we have a lot of limestone paths and bike paths, for instance, 
in Wisconsin. I am from Minnesota, but I do go over there. So I 
am pointing out that in itself doesn't necessarily indicate it 
is motorized. In fact, we can't have motorized. In fact, I 
would get the roller-bladers off there. If you ever tried to 
pass one of them, they are all over the place.
    Mr. Hansen. The gentleman from Nebraska.
    Mr. Bereuter. No questions.
    Mr. Hansen. Does the gentleman from Illinois have any 
questions?
    Mr. Vento. The question he should be asking is on the 
nomenclature there.
    Mr. Hansen. I don't think he wants to. If I may ask, a 
major provision of H.R. 588 exempts the American Discovery 
Trail from land acquisition. The testimony states that the 
National Park Service believes the national discovery trail 
should not be exempt from Section 7(e) and (f) of the National 
Trails System Act. This creates the fear that private 
landowners have concerning this bill or further land 
acquisition in general.
    All you have done is leave Section 7(g) in the bill, which 
would not allow condemnation. If you are not going to condemn 
things, is it the intent of the National Park Service to 
eventually acquire the trail right away for the American 
Discovery Trails and any subsequent national discovery trails?
    Ms. Stevenson. May I ask Tom Ross, who is one of our trail 
specialists and very familiar with the Act to answer that?
    Mr. Hansen. Bring him up. Identify yourself and grab that 
mike on the other side. Tell us who you are for the record.
    Mr. Ross. Yes, sir. Good morning, Mr. Chairman. My name is 
Tom Ross. I am the Acting Assistant Director for Recreation and 
Conservation Programs with the National Park Service. I believe 
the question you raised was in regard to our request to have 
authority to use those two subsections, under Section 7. They 
would allow the opportunity for us to participate with the 
trail organizations in cooperative agreements and also for the 
Federal Government to carry out land transfers under that 
authority. Specifically in our testimony, we are in agreement 
with the bill, which precludes any kind of Federal acquisition 
authority for this particular trail.
    Mr. Hansen. Do you envision possibly at a later date the 
National Park Service will ask Congress to authorize and 
appropriate funds for acquisition.
    Mr. Ross. No, sir. The intent of the entire Discovery Trail 
category is to build upon the efforts of State, local and the 
nonprofit groups that are involved in establishing trails and 
not to create any new federally owned areas.
    Mr. Hansen. Well, do you have any further questions, Mr. 
Vento.
    Mr. Vento. I just wanted to comment to my colleague in 
Illinois, there is an Illinois boyhood site for Lincoln in 
Springfield and one in Kentucky, so there are three different 
sites. I was trying to recall what the circumstance was.
    With regards to your last question, Mr. Chairman, I think 
the issue that is going to arise is that, of course, if you 
build this framework, this 6,000-mile framework, it is possible 
States or local governments or nonprofits will, in fact, fill 
in the areas and help you. Of course, that does arise.
    What comes back to us at that particular time, then, as we 
were to work with that, would be the question of operating 
expenses, which have greatly been diminished by all the 
volunteer efforts. This is the logical extension in terms of 
what we are doing. There are some questions about the conflicts 
that occur.
    When I joked about the roller-bladers, they also have--they 
are doing ways of inventing. I mean, once you put the trails in 
place, you end up with a tremendous number of people. So the 
caring capacity issue with regard to the trails, especially 
around some urban areas, is a real important question, you 
know. So I just would point that out in terms of trying to deal 
with these.
    I mean, there are a lot of questions that arise with regard 
to motorized use. For instance, if you are actually using 
freeways or highways, we have fences around them so that people 
aren't walking around on them. So in these cases, you would not 
have a contiguous area you could walk in. Is that the point, 
Ms. Stevenson, or the other member of the Park Service? Can you 
answer that question? How do you anticipate use of the trail 
differing in terms of the motorized use, other types of uses? 
In some areas, you would not be able to take your roller 
blades; is that right.
    Mr. Ross. That is correct, sir. I think, as the study 
indicates, a good portion of the American Discovery Trail, 
initially, will be along roadways and sides of roadways, and 
that by its nature would not be able to preclude any sort of 
motorized use.
    Mr. Vento. You can bike though, can't you?
    Mr. Ross. Yes, sir.
    Mr. Vento. That is the important thing.
    Mr. Hansen. We have always been kind of concerned about the 
trails and I think the general consensus is we feel good about 
them and they are a part of our culture and history and that 
type of thing. On the other side of the coin, they seem to be 
like many government programs. They start out very innocuous 
and before we long we are pouring money into them and I think 
that is what Mr. Bereuter is trying to work out.
    On the great western trail we worked on, we have 
scrupulously tried to make sure we are not pouring any Federal 
money into this thing. I cannot believe the amount of people 
that go up and clear that trail and they have started societies 
and organizations and memberships and fraternities and the 
whole 9 yards about it, and part of the thing in life is to 
have on your badge that you have both hiked the Appalachian 
trail, what do they call it, the Pacific Crest Trail and also 
the Great Western Trail, and I admire the folks who can do it.
    I guess we get a little nervous if we anticipate, one, 
private property being desecrated without a willing seller or 
willing right of way and, two, the money that has to come out 
of Congress. On the other side of the coin, there are things 
that are worth appropriating money for because of the 
historical nature of it.
    Mr. Weller, if I may point out, there seems to be some 
concern on names in your particular area. Some of us, we have 
heard, there might be an amendment to change it to Land of 
Lincoln National Historic Trail. Have you heard that, and if 
you haven't, would you agree to it?
    Mr. Weller. I was not aware of a Land of Lincoln National 
Historic Trail and the sponsor of that particular amendment has 
not discussed it with me.
    Mr. Vento. It is getting better all the time, isn't it?
    Mr. Weller. I am proud Congressman Lipinski represents the 
area to the north and the city of Chicago is working closely 
with me, and I am anxious to work with members of the committee 
in a bipartisan way to move this legislation forward. Clearly, 
Abraham Lincoln played a very important role for this Nation 
and Illinois is the land of Lincoln. I am anxious to work with 
this committee as we move through this process, but I do 
believe the Lincoln name as part of this national historic 
trail would be important. I think it is important he have his 
name as part of that name.
    Mr. Hansen. We appreciate Katherine Stevenson and Robert 
Joslin for being with us, and the gentleman, is it Watt?
    Mr. Ross. It is Ross, sir.
    Mr. Hansen. Thank you for your testimony. Excuse me for not 
picking that up.
    Our second panel is Bill Theis, David Lillard and Reese 
Lukei. If they would come forward. I understand Mr. Pickett 
wanted to be here to introduce one of our witnesses. I haven't 
seen him yet.
    We have room for our third panel, Mr. Leonard Lock. Mr. 
Lock, if you would like to come up, we might as well have you 
all at the same time. We are grateful for our friend from 
Virginia, Mr. Pickett. You can join us up here, if you would 
like to or wherever you are comfortable. We will turn to our 
friend from Virginia, colleague, Owen Pickett, to any opening 
statement he may have and any introduction of witnesses he may 
want to cover

  STATEMENT OF THE HON. OWEN B. PICKETT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Pickett. Mr. Chairman, I want to thank you very much 
for this opportunity. I know you are having a very busy hearing 
this morning, but I appreciate you giving me the opportunity to 
come here and introduce to the committee Mr. Reese Lukei of 
Virginia Beach. He is a gentleman who not only talks about 
matters involving the National Trail System, but I think 
perhaps his record of actually using the system either equals 
or exceeds that of just about anyone else I have ever had 
occasion to be associated with. So he comes here today with a 
clear and fully justified bias in favor of the National Trail 
System, and yet he brings an objective and realistic view that 
has been built upon, his own experience in using the system, 
and in helping others and encouraging others to use it also. So 
I look forward to the testimony of Mr. Lukei here today.
    I commend him for coming and lending his support, and I 
thank you very much, Mr. Chairman, for this opportunity to 
present him and tell you a little bit about his background in 
the National Park System and what it means to him and to our 
Nation.
    [The statement of Mr. Pickett follows:]

 Statement of Hon. Owen B. Pickett, a Representative in Congress from 
                         the State of Virginia

    The American Discovery Trail, administered by the American 
Trails Society, is our nation's first coast to coast multi-use 
hiking trail. The trail is a 6,356 mile long route that links a 
patchwork of trails--35 percent existing, the others newly 
created--that will serve as a connector between the east and 
west coasts of the United States and inspire interest in 
outdoors by providing new and better places to explore nature. 
Although the trail has already been mapped across America, it 
still needs to be authorized by this Committee in order to be 
included as a part of the American Trails System.
    I was introduced to the American Discovery Trail project by 
a constituent of mine, Mr. Reese Lukei. Through his efforts, I 
became a cosponsor of H.R. 3250, the ``American Discovery 
Trails Act 1996,'' in the 104th Congress, and I am proud to be 
an original cosponsor of this legislation in the 105th 
Congress. I am very pleased to have one of my constituents in 
Washington, today to testify on behalf of this most worthwhile 
legislation.
    Mr. Lukei, an avid trail enthusiast, has been involved in 
community, state, and national trail projects for several 
years. He is currently the National Coordinator for the 
American Discovery Trail, the Vice President of Virginia 
Trails, an active volunteer with the Back Bay National Wildlife 
Refuge, located in Virginia Beach, Virginia, and is licensed by 
the United States Fish and Wildlife Service to trap and band 
raptors. Mr. Lukei has received numerous awards from the 
American Hiking Society, the Daughters of the American 
Revolution, and the Fish and Wildlife Service for outstanding 
service and contribution to the trails community. And perhaps 
the most important of all, he has hiked in all 50 states, every 
province and territory in Canada, except Newfoundland, seven 
countries in Europe, and all 2,100 miles of the Appalachian 
Trail. If this does not make Mr. Lukei an expert on the subject 
of trails . . . I don't know what would!
    Reese, if I missed anything I apologize, but with limited 
time and such exceptional background and credentials, it would 
take me the rest of the morning to present your achievements to 
the Committee. I would like to reaffirm my strong support for 
this legislation and thank the Chairman for allowing to speak 
today.

    Mr. Hansen. Thank you very much. I appreciate you being 
with us. Mr. Weller, did you want to have any introductory 
remarks of this panel?
    Mr. Weller. Well, thank you, I made reference to Mr. Lock 
who is part of your panel, I want to thank you for the 
opportunity for him to testify. Leonard Lock is chairman of the 
city of Ottawa Historic Preservation Commission and is a 
Lincoln scholar and has been a real leader in conservation 
efforts and open space initiatives. I also want to point out 
that the Illinois-Michigan Canal Heritage Corridor, which has 
come up today, resulted from the efforts of people like Leonard 
Lock.
    Leonard was one of the leaders, almost a generation ago, in 
helping to establish the national heritage corridor and with 
the sponsorship of Tom Corcoran, who served in the Congress and 
was my mentor in the political process. I want to welcome Mr. 
Lock and also thank the Chairman for his opportunity to 
testify.
    Mr. Hansen. Thank you. You folks heard the rules. Can you 
handle it in 5 minutes? If you can't, let me know, we will give 
you a couple minutes longer, but really that is our rules, 5 
minutes. You see the light in front of you, it's just like a 
traffic light. Green, go; yellow start winding up; and red cut 
it off. We don't give you a ticket if you go over, especially 
in a loose hearing like this one, but we appreciate if you stay 
somewhat close. We will start with Mr. Lillard and just go 
across.

 STATEMENT OF DAVID LILLARD, PRESIDENT, AMERICAN HIKING SOCIETY

    Mr. Lillard. Thank you, Mr. Chairman. My name is David 
Lillard. I am the President of the American Hiking Society. I 
would like to thank you for the opportunity to address the 
subcommittee today. First, I will address the issue of 
establishing the national discovery trail category within the 
National Trail System Act and then speak briefly on the 
authorization of the American Discovery Trail.
    The National Trail System Act has made possible 20 long-
distance, primarily multi-State trails, but the current 
construction of the Act does not fully address the changing 
demand for outdoor recreation in America, which is at an all 
time high. As called for by President Ronald Regan's Commission 
on Outdoors, today's families need outdoor recreation 
opportunities that are closer to home.
    Also outlined by President Reagan's Commission, trails and 
greenways provide cost-effective recreation and bring focus to 
local and regional park planning by linking existing parks and 
forests with places where people live and work. The idea of 
linking people with parks and linking existing parks and trails 
with one another truly makes a system of the National Trail 
System, rather than a collection of trails, yet no long 
distance trail designation within the current Act encourages or 
accommodates trails which are developed for such purposes.
    So the national discovery trail category fulfills the 
Reagan Commission's recommendations for such linkages. In 
addition to linking existing parks and trails with one another 
and with communities, discovery trails by their intent also 
link outdoor recreation with local commerce. By bringing 
discovery trails into cities, small town and suburbs, local 
businesses have provided a regional focus for commercial 
activity.
    Discovery trails also promise a vehicle for promoting 
regional tourism, an opportunity already seized upon by the 
tourism offices of the States of Nebraska, Colorado and West 
Virginia. So although the benefits and primary use of discovery 
trails would be local and regional, the new category of trail 
does indeed recognize corridors that are nationally 
significant. Discovery trails are nationally significant 
because they provide the possibility of linkages we have talked 
about. They invite States and local governments to think 
cooperatively about a national trail while making their own 
decisions that meet their own needs and they allow Americans to 
discover for themselves the regional diversity which is 
America, a discovery that will foster an appreciation of shared 
American values and an understanding of regional differences, 
whether East and West or urban and rural.
    Although they are nationally significant, discovery trails 
do not require Federal management on trail lanes outside of 
Federal acreage. In fact, as we discussed, Discovery Trail 
categories require in place a citizen-led, nonprofit 
organization to support the trail before it is even designated 
by Congress. Still, there is a very important Federal role in 
Discovery Trails, that of the convenient and the technical 
assistance.
    The Federal Government has a vast range of expertise and 
experience that would help State, local and other Federal 
decisionmakers, as well as nonprofit organizations to 
coordinate their activities and their planning. This is a bold 
idea for Federal involvement in trails. It says to Americans, 
if your community wants our assistance, we will participate in 
your efforts. It also challenges States which develop discovery 
trails to utilize innovative means for conserving trail 
corridors, including conservation easements, voluntary transfer 
of development rights, privately funded land trust and 
conservancy, so I stress local and voluntary and private and 
local involvement.
    This emphasis on linkages makes the most of the American 
investment in parks and trails, the reliance on local 
decisionmaking, and the private sector involved in the 
administration of Discovery Trails have been enthusiastically 
embraced by the trail community and the Members of this 
chamber, an enthusiasm illustrated by the more than 50 
cosponsors of the measure.
    On the authorization of the American Discovery Trail within 
the new category, the ADT fully meets the criteria for the 
National Discovery Trail designation in H.R. 588. First, it 
meets the linkage criteria by linking together cities of 
Washington, Cincinnati, Kansas City and Denver and also links 
nationally significant trails as has been outlined.
    Second, it does meet the qualification criteria of a 
nonprofit organization. The ADT Society is incorporated as a 
501(c)(3) and was formed specifically to promote and care for 
this trail. Clearly, at the local level people want this trail. 
Third, it meets interstate criterias as has been clearly 
outlined.
    In closing, the American Discovery Trail is a nationally 
significant grand idea. It presents new ways of getting big 
things done by putting them into the hands of people who care 
about them the most. It has generated a lot of excitement 
within the States long underserved by Federal recreation 
programs, such as Nebraska and Kansas and others and these 
States deserve our gratitude and encouragement, along with 
Federal recognition and assistance on the project. ADT was 
ahead of its time when it was conceived, but this Congress 
gives us hope that its time has come. Thank you.
    [The statement of Mr. Lillard can be found at the end of 
the hearing.]
    Mr. Hansen. Thank you.
    Mr. Lukei.

  STATEMENT OF MR. LUKEI, JR., NATIONAL COORDINATOR, AMERICAN 
                    DISCOVERY TRIAL SOCIETY

    Mr. Lukei. Chairman Hansen and members of the subcommittee, 
I am Reese Lukei, Jr.. I am and have been for the past 7 years, 
the national coordinator of the American Discovery Trail, a 
project begun in 1989 by the American Hiking Society and 
Backpacker Magazine to, one, establish our Nation's first 
coast-to-coast multiuse recreational trail through a nationwide 
grass-roots effort.
    Two, connect as many existing local and regional national 
trails together as possible. Three, route the trail through 
large metropolitan cities, bringing it closer to where people 
live. And, four, provide encouragement to local citizen groups 
and municipalities to develop and maintain trails in their 
area. Under the National Trail System Act, eight national 
scenic trails have been created under the model established by 
the trail and are mostly located in remote areas, avoiding 
urban areas.
    In the past 30 years, a number of studies by Federal 
agencies, the outdoor recreation industry and the housing 
industry, all indicate that recreational trail use has 
increased tremendously and is expected to continue to do so, 
and that people want to recreate closer to where they live. The 
proposed long distance trail category, national discovery 
trails, and the American Discovery Trail, will recognize these 
trends.
    The ADT is a first long-distance trail that has been 
intentionally designed to link trails together and to pass 
through or near large metropolitan areas. Thirty-two million 
Americans live within 20 miles of the 6,000, 356-mile route of 
the ADT. The American Discovery Trail connects five of the 
eight national scenic trails, 10 of the 12 national historic 
trails and over 200 local and regional trails.
    Two of those trails are the proposed Lincoln National 
Historic Trails, which--maybe it is going to be Lincoln 
National Historic Trail, which Congressman Weller is here to 
speak to today and the great western trail, which had 
legislation successfully sponsored last year by Chairman 
Hansen. This has been accomplished through the involvement of 
several thousand citizen volunteers under the outstanding 
leadership of our 15 State coordinators who paid all their own 
expenses.
    Much credit is also due to the local, State and Federal 
land managers, town councils, planning commissions and economic 
development and tourism divisions, for their cooperation, 
assistance and encouragement. We have been sensitive to private 
landowners with whom we have held many meetings.
    Of the 6,356 miles of the American Discovery Trail, only 58 
miles are on private property and all of that is on existing 
trails and with the landowners' permission. The ADT has 
provided incentive to many local projects, such as the Ute Pass 
Corridor Trail in the Pikes Peak area of Colorado.
    I request that the written statement of Richard V. Bratton, 
Mayor of Green Mountain Falls and Chair of the Pikes Peak Area 
Council of Governments be made a part of the public record and 
I quote from his written statement. ``The ADT will provide a 
unique and important connection between urban and back-country 
trail systems. ADT will help us to realize a nonmotorized link 
between the second largest city in Colorado, Colorado Springs, 
and the mountain communities that surround Pikes Peak. The 
concept of the ADT has already been instrumental in assisting 
us in our local fund-raising efforts, supporting grant requests 
and capturing the interest of State, county and local elected 
officials. The ADT is key to our success.'' That is the end of 
his quote.
    [The information can be found at the end of the hearing.]
    Mr. Lukei. The ADT is already producing economic benefits 
for the communities along its route. Ellen Dudley and Eric 
Seaborg, who were referred to earlier as having written the 
American Discoveries book of their experience, who laid the 
foundation of the ADT's route in 1990 and 1991 scouting 
expedition, comment in their written statement to the 
subcommittee that trails attract tourists and businesses that 
cater to trail travelers which are al-

ready springing up on many sections of the American Discovery 
Trail.
    On behalf of the ADT State coordinators, the thousands of 
citizen volunteers and the land managers who have worked hard 
for 8 years to create the American Discovery Trail, a trail 
that millions of Americans will use, I request that you 
recommend to your colleagues in the House of Representatives 
the passage of House bill H.R. 588, the National Discovery 
Trails Act of 1997.
    Thank you for allowing me to present my comments and I 
believe I can answer some of the questions that were previously 
presented to some of the prior committee members.
    [The statement of Mr. Lukei can be found at the end of the 
hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Theis.

  STATEMENT OF BILL THEIS, MEMBER, S.T.O.P. (STOP TAKING OUR 
                 PROPERTIES) STEERING COMMITTEE

    Mr. Theis.  Thank you, Mr. Chairman and members of the 
committee. I am a former teacher, turned businessman. The 
property rights movement first attracted my attention in 1989 
as a result of proposed legislation that would have expanded 
the Indiana Dunes National Lake Shore in northwest Indiana. In 
1994, I was elected to serve a 4-year term as the trustee/
assessor of Pine Township in Porter County, Indiana, and 
currently I serve the property rights movement as a member of 
the Stop Taking Our Property Steering Committee and the Great 
Lakes Regional Chair for the Alliance for America.
    I come before you today in total support of recreational 
trails. My own youth has very fond memories of summers I spent 
hiking the Appalachian trail when it was privately owned. This 
was back in the very early sixties, late fifties. However, I 
find myself philosophically opposed to the idea the Federal 
Government should be in the recreation business. I can't find 
any authority for this type of action in the Constitution.
    Further, I find myself opposed to the concept of federally 
subsidized recreation. My own personal passion is fishing. One 
of the best kept secrets in Northwest Indiana is the Lake 
Michigan fishing. We have wonderful lake trout and steelhead 
and king salmon and cohoe salmon. I fish on two teams that fish 
the tournaments, and I would not come before this body and ask 
you to subsidize my hobby, and I don't think that the Federal 
Government should be getting involved in subsidizing other 
people's hobbies.
    It is very difficult for me to understand why this bill is 
even being considered when congressional concern seems so 
focused on balancing the budget without making cuts in social 
security and Medicare. Therefore, I must stand firmly in 
opposition to House bill 588. However, I realize there are 
people who are philosophically opposed to my particular stand 
on this issue and if you do choose to move forward with the 
legislation, I urge you to give serious consideration to the 
following suggestions.
    The bill states no lands or interests outside the exterior 
boundaries can be taken. There is a problem here. In 1966, we 
could exchange the words we have heard here today so far on the 
trail system with the words, ``Indiana Dunes National Lake 
Shore,'' where there was not an intent to take anybody's home. 
It was going to be strictly willing seller. It was going to be 
strictly voluntary and strictly cooperative.
    The end result was Thursday, September 5th, the U.S. Park 
Service evicts woman and son. Despite all the promises, things 
tend to change in Congress over the years, and I don't know if 
anybody on this committee was here when that happened, but this 
is one of over 700--and this is national parks figures, people 
who have lost their homes and business in the Indiana Dunes 
National Lake Shore. And I would like to present the Chairman, 
I will leave it with the committee, a video tape of the Federal 
marshals pulling the moving van up in front of the house, 
escorting her out of the house and moving her lifetime 
possessions out.
    Other examples--this type of legislation is always subject 
to future editions and changes and other examples include view 
scapes, sound scapes, easements, covenants, buffer zones, and, 
yes, the exemption from condemnation gets lifted. The 
Appalachian trail serves as a good example of how original 
trail acts tend to get expanded by these types of legislative 
devices.
    I have with me today Mr. David Guernsey, who can answer 
questions in detail because he was here when this happened and 
he also made this a part of the record of this committee, and 
we talk here that the provisions in National Trail System Act 
of 1968, the Park Service was to put up a 1,000-foot corridor 
to protect the Appalachian trail.
    They offered to donate the land and the Park Service said, 
no, and I see my yellow light went on here and I want to get 
some other things so maybe we can address that in questions. 
Two, the second suggestion I have is we put a sunset clause of 
some sort on there so that this proposed plan doesn't drag on 
and on and on and on for years. Thirdly, the provision to enter 
into arrangements with the trail-wide nonprofit organization is 
just unacceptable. If the trail system is to have any chance of 
success, I would suggest we look at the Indiana Rails to Trails 
Act that was passed last summer. It was very, very successful 
and it was agreed to by all and there are several things in 
there that I bring to your attention, the first of which is 
that any proposed trail had to have the official approval and 
participation of every unit of local government through which 
the trail passed.
    I have heard lots of testimony here today that everybody is 
in favor of this. Nobody asked me. I did an instant poll with 
300 property rights and resource organizations on Sunday when I 
was telling them about this bill and not a single one of the 
organizations was contacted or asked about this. Despite the 
immense amount of planning, these groups are being ignored. If 
it is to have any chance of success, that needs to be included. 
There is also a little thing called a fence requirement that 
takes care of the liability.
    Any property owner, who is adjacent, and that is an issue 
we haven't addressed here today, is the adjacent property 
owners, have issues of privacy and liability. In Indiana, any 
property owner who requests a fence, that is a trail 
organization, is responsible for putting that privacy fence up, 
which then, of course, limits the liability. So it brings us 
down to the three basic questions: Do we want it, and who is 
we? Does this include all affected parties? Do we need it? And 
I think we need to differentiate, especially in today's 
budgetary times, between the wants and the needs. We face that 
every day with our own township.
    And thirdly, can we afford it? There is no mention in the 
bill about moneys, but I am already hearing a figure of 360,000 
here, 200,000 there, so this committee has a really tough 
decision to make. Is the trail more important than our parents' 
social security? Is the trail more important than the medicare? 
Is the trail more important than maybe giving some of the 
taxpayer money back to the American public? Thank you for 
allowing me to testify today. I will be glad to answer any 
questions.
    [The statement of Mr. Theis can be found at the end of the 
hearing.]
    Mr. Hansen. Thank you, Mr. Theis.
    Mr. Lock, we will recognize you, sir.

                  STATEMENT OF LEONARD E. LOCK

    Mr. Lock. Mr. Chairman and Members of Congress, my name is 
Leonard Lock. I am from Ottawa, Illinois, which is the site of 
the first Lincoln-Douglas debate, and since there is a question 
on the floor concerning the name of the trail, I will try to 
address that issue, if I may.
    Tom Gilbert, who I talk to on the telephone all the time, 
wrote: ``As you know, Lincoln heritage is one of the several 
important themes of the proposed Illinois National Historic 
Trail, along with Mississippian Indian culture, French 
exploration and transportation.'' I am going to submit a 
proposal that will include all of those, and, also, eventually, 
include the Congressman from Kentucky, that the Lincoln 
National Historical Trail, this would be Phase 1. Phase 2 would 
go from Springfield to Vincennes, Indiana, to of course, his 
birth place in Kentucky. All of these could be incorporated. 
This could be phase one.
    Lincoln was a Member of Congress, as you know, and he made 
a very important statement June 20, 1848, when he said that 
sugar had been, for the first time, shipped from New Orleans to 
Buffalo, New York. There was a navigational gap in the Nation, 
and the canal, which is the ditch that put Chicago on the map, 
made that become a reality.
    Most of this information is included in my written 
statement, and I am going to include that so that this should 
be read to get the full impact. And as Congressmen, I am not 
trying to tell you what to do, but Abraham Lincoln was a master 
at satire, and some of these were hilarious. What he did to the 
former Attorney General that was a member of the legislature in 
the old capital in Vandalia, Illinois, is hilarious. I urge you 
to read it. He also did the same thing to David Dudley Field at 
the Chicago Rivers and Harbors Convention in 1847, where 10,000 
people came.
    Lincoln wanted to be Illinois DeWitt Clinton. When he first 
ran for public office, and incidentally he was defeated, he 
said he supported internal improvements. He never changed that, 
to his Presidency and his two annual messages to Congress. He 
told his friend Joshua Speed in Springfield that ran a store, 
he wanted to be Illinois DeWitt Clinton. And he also made a 
speech in Vandalia, he made it in Congress and he made it for 
the Chicago Rivers and Harbors Convention. So he was associated 
with the canal.
    For example, he came to hearings in my hometown of Ottawa 
for legal claims against the canal. He also took a trip down 
the canal with his family. He was in Washington, DC as a 
Congressman. He went to Buffalo, and then he came down to the 
Great Lakes and went down the entire canal on October 8, 1848, 
and he went as far as Peoria, of course from LaSalle, Peru, he 
went by steamboat, then went to Peoria, Illinois, and then by 
stagecoach to his own home.
    And here, to include everyone, for example, if I just may 
take, the State of Illinois obtains its name from the great 
Village of the Illinois, from which there was an SOS out a few 
years ago, that is Save Our Site, and it was purchased by the 
State, and that is where the Mission of the Immaculate 
Conception occurred, and that is Pere Marquette. The other 
trails would be the Chicago Portage, Pere Marquette, W.D. 
Boyce, and Chief Shabbonah and Lincoln-Douglas Debate Trail.
    And here are all the various things regarding the entire 
trail, the Illinois-Michigan Canal, the Illinois River, and the 
branch to Springfield. Presidential messages to the Congress 
are rarely noted for their literary significance, but the 
annual message to Congress of December 1, 1862, is Lincoln's 
literary masterpiece.
    In that, President Lincoln said (Dec. 1, 1862): ``The 
military and commercial importance of enlarging the Illinois-
Michigan Canal and improving the Illinois River is presented in 
the report of Colonel Webster to the Secretary of War, and now 
transmitted to Congress. I respectfully ask attention to it.''
    The story of the canal and the Illinois River is a story of 
Illinois and the Nation. This historic travel began the 
transformation of a backwards wilderness into the world's 
richest reservoir of civilization's blessing. The work of the 
pioneers should be preserved and woven into the cultural life 
of present and future citizens of the Nation, for school 
children in Illinois and across the Nation and throughout the 
world sing:
    ``We have an old mule named Sal. We want to ride on Mr. 
Lincoln's national historic trail.'' And in conclusion, this 
may be one of the logos for the Lincoln National Historic 
Trail, which would eventually include Illinois, Indiana and 
Kentucky. In conclusion, I might add, I have been told many 
times that a foreign visitor coming in to the United States is 
first interested in seeing Disney Land, second, the Lincoln 
site.
    [The statement of Mr. Lock can be found at the end of the 
hearing.]
    Mr. Hansen. Well, thank you very much. Mr. Bereuter.
    Mr. Bereuter. I have no questions, Mr. Chairman.
    Mr. Hansen. Mr. Vento.
    Mr. Vento. Well, Mr. Chairman, I commented earlier about 
the motorized versus nonmotorized aspect. How do you envision, 
Mr. Lukei, the relationship in terms of motorized versus other 
uses of the trail? Important uses like straight line roller 
blades.
    Mr. Lukei. Actual recreational and motorized uses only two 
or three small sections of the trail, one in southwest Utah, on 
the Piute Trail, which is actually an ATV trail, and the other 
are two trails in which snowmobiles are allowed. One is a 
Hoover Valley Nature Trail and one of the other trails in Iowa.
    There is a distinction between motorized recreational use. 
We are on a number of roads. They are mostly back country, 
farm-to-market roads, on which recreational vehicles, such as 
ATVs and snowmobiles are illegal, that is why they are called 
off-road vehicles. Therefore, the roads we are on are roads 
which hiking, bicycling and horseback riding are legal 
activities.
    I would also point out that while currently the route is 
about one one-third on existing trails, one-third on some type 
of dirt or gravel road and many are roads that have limited 
access like Forest Service roads, and in Nebraska, the 
irrigation system out there has maintenance roads which allow 
recreational use on them and we follow some of those irrigation 
roadways, and the others are back-country roads that, again, 
recreational motor use are not permitted on.
    So this is intended to be a nonmotorized recreational 
trail. There is very little conflict in those areas with 
respect to motorized use. Actually, in Mr. Hansen's State of 
Utah, we were intentionally routed on the Piute Trail near 
Circleville, by the Forest Service and by the local citizens 
who built that trail.
    Mr. Vento. I understand that. I know even in the State of 
Minnesota, we have 15,000 miles of snowmobile trail and 
sometimes there is a common use with the snowmobile and cross-
country skiers and other types of uses. And we found out, 
because snowmobiles have sort of a cleat in the track that they 
actually cause a lot of damage to the trail, you know, so they 
wear it down and the maintenance costs have gone up, but they 
do pay a certain fee and so forth so it can be maintained. But 
it is increasingly an issue even there, much less within the 
voyagers.
    Mr. Theis, we were pleased to find our way up here together 
today and I read your testimony and I noticed that you feel the 
Federal Government shouldn't be involved in any type of 
recreation activities because you think we have more important 
tasks. I suppose you made an exception for fishing, didn't you.
    Mr. Theis.  As a matter of fact, I didn't.
    Mr. Vento. We were talking about fishing in Lake Michigan 
and we talked about doing it in Lake Superior or some other 
puddle in Minnesota, but you realize there is a lot of effort 
and investment in terms of recreation in sport fishing by the 
Federal Government, Fish and Wildlife Service, and, you know, 
dealing with invasive species and a lot of other aspects.
    Obviously fishing in Lake Michigan would look a lot 
different if we didn't do something about things that occur 
there, ruffies and the invasive species. I am trying to think 
of the other muscles, zebra muscles. Actually, you think we 
ought to get out of it and let someone else do it. You were 
talking about sport fishing. You are not a commercial 
fisherman, are you?
    Mr. Theis. I am sport fisher. It is my understanding in 
Indiana the stalking and taking care of the lake is done by the 
DNR and we are required to pay a fishing license and the better 
part of that money goes toward that activity, so in a sense, 
all the sports fishermen are paying their own way.
    Mr. Vento. We would all like to think that, but if you look 
a little closer, you will find that general taxpayers pay a 
lot. We would like to think they could pay their own way, and I 
suppose some trail users feel they pay their way when they pay 
the income tax, too.
    Mr. Theis.  The State DNR, at least in Indiana, is 
constantly making the legislature to raise the fishing license 
so they can cover the cost, so I think a significant part is 
taken care of that way.
    Mr. Vento. We hear a lot about it. We went through a 
process of raising fees for entrance users and any other way we 
can extract it to the point we are now getting backlash from 
some corridors, Mr. Chairman, about that, as they are 
implemented. It is interesting to me, the Forest Service, they 
always look better in Washington than they look on the ground 
in Minnesota and I would say in Utah it is different, but in 
any case, I think they pay 10 or 15 percent at the most of what 
the cost is of running some of the agencies. And I think the 
same would be true of some of the forests or the Fish and 
Wildlife Service, which we as sports persons depend upon. I 
don't object to it, I just wanted to make the observation. I 
understand your concerns and I just think that that one ought 
to receive a little more consideration.
    Mr. Hansen. Did you want to respond, Mr. Theis?
    Mr. Theis.  Yes, I will respond and another comment comes 
to mind, Mr. Chairman, if I can take a minute to do that. I 
think maybe in the interest of fairness, if we are going to 
have fishing and hunting licenses for fishing and hunting 
people, maybe we should consider having hiking licenses for the 
hiking people so it is at least partially subsidized. But on 
another thought, as I listen here today, and I have done my 
research, a thought has come to mind. There is an alternative 
here to all of this.
    If nobody is objecting to the idea of a trail of a national 
significance and historic and good idea, the objection is what 
it might become above and beyond that. Well, that if that is 
really the only purpose for it, maybe we don't need 
legislation, and the idea came to mind, as Mr. Bereuter talked 
about the Lewis and Clark Trail. Senate Resolution 57 said God 
bless the Lewis and Clark Trail. It is nationally significant. 
It is wonderful and we want to recognize it, and that was the 
end of it. And perhaps with the trail, all we need is a 
resolution, rather than a legislation that might be expanded 
and eventually lead to condemnation of property and whatever.
    Mr. Vento. Mr. Chairman, we can reduce ourselves to passing 
commemoratives and probably everybody would be happy because we 
wouldn't do anything for or to someone. I want to comment on 
the Illinois River Trail and I appreciate the work that has 
been done by the witness, Mr. Lock, on this issue, but much of 
what you talk about, of course, is the Illinois-Michigan Canal, 
and so I guess, again, I will reiterate, you did explain a 
logic where you were going to connect the birth place and the 
boyhood home and the Springfield site so maybe you want to 
comment about that further for me.
    Mr. Lock. Yes, I would. I have a photostatic copy of--the 
Lincoln National Life Foundation has done a study including all 
the trails, and so has Lloyd Ostenkoff in the back of his book, 
regarding Lincoln and his entire life and that includes, 
Illinois, Indiana and Kentucky, the major States. That should 
be a goal of Congress, very long-term, and this could certainly 
be phase one, and I think it is equally as important. I think 
the debate site in Ottawa is equally as important as his birth 
place in Kentucky and I would support both.
    If I may enter into the record, I did bring this along for 
the Library of Congress and all of Congress. It is called 
Lincoln's Connection with the Illinois Michigan Canal and (also 
includes) the Illinois River, his return to Congress and his 
Invention and there was an Abe Lincoln boat that went out of 
Morris, Illinois, and this is available and I will give it to 
the Chairman for everyone in Congress.
    Mr. Hansen. Thank you. Mr. Weller.
    Mr. Weller. Just a brief comment. I think Mr. Lock, who is 
a scholar and a noted historian in the area with his knowledge 
of Lincoln, has done a fine job of reinforcing Abraham 
Lincoln's connection with Illinois and an area that would be 
included in the national trail, and I want to thank you for 
including Mr. Lock and giving him the opportunity to testify 
today.
    Mr. Hansen. Thank you.
    Mr. Pickett.
    Mr. Pickett. Thank you, Mr. Chairman. I notice that this 
legislation places the administration of this trail system 
under the Secretary of the Interior, in cooperation with a 
competent trail-wide, nonprofit organization, and other 
affected land managing agencies. Mr. Lukei, I noticed that you 
were the national coordinator for the American Discovery Trail 
Society.
    How do you feel about this arrangement and do you think 
adequate provision is being made to involve the various 
voluntary organizations that are concerned with trails and 
hiking?
    Mr. Lukei. Yes, sir, I certainly do, and in fact the model 
that is used worldwide for the management of trails is a model 
established by the Appalachian Trail and while we are not 
building a trail that is identified as a remotely located 
trail, the management of that trail is a model for it and the 
reason for that is, as Katherine Stevenson, from the Park 
Service pointed out, the agencies need one lead agency or one 
nonprofit organization, with which they can communicate and 
enter into agreements.
    There are actually 63 organizations that have 
responsibility for maintaining and managing parts of the 
Appalachian Trail, but they all operate under the umbrella 
organization of the Appalachian Trail Conference. We foresee a 
very similar management situation with respect to the American 
Discovery Trail. There would be one nationwide organization, 
the American Discovery Trail Society, which would have the 
overall responsibility and the umbrella responsibility, working 
with the 150 or so organizations that we have already 
identified along the route. I think that is not only a very 
efficient way, but it is the most effective way and the 
Appalachian Trail has shown that is the way to manage these 
long distance trails.
    Mr. Pickett. Thank you very much. I know the Appalachian 
Trail has a great record of being a very successful undertaking 
and if that is going to be used as a model, I feel better about 
the way this legislation is going to be administered. I want to 
thank the witnesses for being here today and for offering their 
testimony concerning this legislation.
    Mr. Hansen. Thank you. Appreciate the gentleman's comments. 
You have all raised some very interesting questions. This 
committee has wrestled with many of the problems concerning how 
we do trails. We are talking designated trails here, but there 
are trails through public lands and private land, all over the 
50 States, basically.
    The question, Mr. Lukie, you brought up motorized vehicles. 
It is tough to determine. Go to the 1964 Wilderness Act. It 
doesn't say motorized, contrary to popular belief. It says 
mechanized, so when some of these go through a wilderness area, 
frankly, we really don't even have a decision yet what is 
mechanized. It is to the eye of the beholder. And to some 
people--is a backpack still mechanized? The question came up in 
this committee and we argued it for 40 minutes one day.
    I guess technically it is. Is an oarlock mechanized when a 
river goes through a wilderness area? Technically, I guess it 
is. There are very few things you can take, maybe like our 
Native Americans, you wouldn't take too much. The question 
comes up, when you are going parallel to an existing road, why 
not used a mechanized vehicle or a motorized vehicle, even, 
these little motor scooter-type things or motorized mountain 
bikes, I think they call them Hondas or Yamahas or whatever 
they are, and the question comes up by many of the bikers, and 
biking is a big thing.
    As you know, in the State of Utah, Mohab has turned into 
what is a biking capital. There are thousands of mountain 
bikes. Everyone has to have a $1,000 mountain bike now that is 
made out of things that only went to the moon a few years ago 
and that is light and can do the whole bit. We used to by 
Schwinn bicycles for $50. Now, all my kids, they all have to 
have these mountain bikes that are made out of things that I 
don't even understand.
    So the problem comes down to, because it is really kind of 
a tacky problem, and I appreciate all of you folks addressing 
some of these problems. We have to sit here and either turn our 
heads or put our heads in the sand or make legislation that has 
a lot to do with thousands and millions of folks. So you have 
to be kind of careful on these things.
    You folks are talking designated trails, that is one thing. 
Look at the trails that are sandwiched all over America and 
Alaska. It is amazing to me, and any suggestions you may have 
concerning that would be more than welcome. The question on 
both of these bills, I always admire my two colleagues who have 
come up with these. These are bold, innovative, stimulating, 
intriguing ideas, but they are always fraught with a few 
problems in them, and the ones that are going to leap out on 
these bills, especially Mr. Bereuter's bill, will be acquiring 
private property.
    There is a lot to be said for what the government should be 
in and what it shouldn't be in, I don't argue that. The 10th 
amendment is clear on that, even though I think from the days 
of FDR, the 10th amendment is a dinosaur, but it shouldn't be. 
What do we exempt and what don't we exempt? I just want to 
thank my two colleagues for very intriguing and interesting 
pieces of legislation that they brought up and we will look 
forward to see how these progress.
    The gentleman from Nebraska.
    Mr. Bereuter. Mr. Chairman, may I conclude by thanking you 
for a hearing on the bill, 588. I would remind the subcommittee 
what Daniel Burnham said when he laid out the plans for Chicago 
after it burned down: Make no small plans. I like Mr. Lukie's 
response to the question raised just a few minutes ago about 
the cosponsorship with the reference to the, what we call out 
in the West, Mr. Pickett, the Appalachian, but I know you said 
Appalachian, regional trail, and you ought to be right, I 
suppose, since you live closer to it. But I do think the 
experience there has demonstrated why, in the dispute between 
the Forest Service and Park Service, the sponsor of the 
legislation comes down on the sides of the Park Service, 
believing there should be a single nonprofit organization, 
which would work with a whole variety of other local 
organizations which provide the volunteer, the labor and the 
skill and the care for the trail. Again, thank you very much.
    Mr. Hansen. I thank you, gentlemen. Let me just point out 
that what is done around here is predicated on who wants to get 
something accomplished. I noticed some of our witnesses talked 
about NEPA, the Wilderness Act, FLPMA, all of those are very 
important Acts. However, maybe it doesn't prohibit the 
President of United States from completely violating those 
things on September 18, 1996, and putting 1.7 million acres of 
monument to the State of Utah, which doesn't fit any of the 
criteria, which is my plug to change the antiquities law, which 
I will be bringing to the floor in a short time.
    Mr. Bereuter. Will the Chairman yield just one more time?
    Mr. Hansen. I will yield.
    Mr. Bereuter. I notice I am seated in Mr. Pombo's seat and 
that is one more reason to exercise caution on the private land 
issue.
    Mr. Hansen. Let me just add my thanks to my colleagues and 
witnesses and all the folks who have made a point to be here 
today. We appreciate you coming and it has been very 
informative, and I am looking forward to reading the 
information that Mr. Lock has brought up. I hope I have the 
opportunity to read that, kind of being a history buff on the 
gentleman we are talking about.
    Thank you very much. This hearing will stand adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T2393.001
    
    [GRAPHIC] [TIFF OMITTED] T2393.002
    
    [GRAPHIC] [TIFF OMITTED] T2393.003
    
    [GRAPHIC] [TIFF OMITTED] T2393.004
    
    [GRAPHIC] [TIFF OMITTED] T2393.005
    
    [GRAPHIC] [TIFF OMITTED] T2393.006
    
    [GRAPHIC] [TIFF OMITTED] T2393.007
    
    [GRAPHIC] [TIFF OMITTED] T2393.008
    
    [GRAPHIC] [TIFF OMITTED] T2393.009
    
    [GRAPHIC] [TIFF OMITTED] T2393.010
    
    [GRAPHIC] [TIFF OMITTED] T2393.011
    
    [GRAPHIC] [TIFF OMITTED] T2393.012
    
    [GRAPHIC] [TIFF OMITTED] T2393.013
    
    [GRAPHIC] [TIFF OMITTED] T2393.014
    
    [GRAPHIC] [TIFF OMITTED] T2393.015
    
    [GRAPHIC] [TIFF OMITTED] T2393.016
    
    [GRAPHIC] [TIFF OMITTED] T2393.017
    
    [GRAPHIC] [TIFF OMITTED] T2393.018
    
    [GRAPHIC] [TIFF OMITTED] T2393.019
    
    [GRAPHIC] [TIFF OMITTED] T2393.020
    
    [GRAPHIC] [TIFF OMITTED] T2393.021
    
    [GRAPHIC] [TIFF OMITTED] T2393.022
    
    [GRAPHIC] [TIFF OMITTED] T2393.023
    
    [GRAPHIC] [TIFF OMITTED] T2393.024
    
    [GRAPHIC] [TIFF OMITTED] T2393.025
    
    [GRAPHIC] [TIFF OMITTED] T2393.026
    
    [GRAPHIC] [TIFF OMITTED] T2393.027
    
    [GRAPHIC] [TIFF OMITTED] T2393.028
    
    [GRAPHIC] [TIFF OMITTED] T2393.029
    
    [GRAPHIC] [TIFF OMITTED] T2393.030
    
    [GRAPHIC] [TIFF OMITTED] T2393.031
    
    [GRAPHIC] [TIFF OMITTED] T2393.032
    
    [GRAPHIC] [TIFF OMITTED] T2393.033
    
    [GRAPHIC] [TIFF OMITTED] T2393.034
    
    [GRAPHIC] [TIFF OMITTED] T2393.035
    
    [GRAPHIC] [TIFF OMITTED] T2393.036
    
    [GRAPHIC] [TIFF OMITTED] T2393.037
    
    [GRAPHIC] [TIFF OMITTED] T2393.038
    
    [GRAPHIC] [TIFF OMITTED] T2393.039
    
    [GRAPHIC] [TIFF OMITTED] T2393.040
    
    [GRAPHIC] [TIFF OMITTED] T2393.041
    
    [GRAPHIC] [TIFF OMITTED] T2393.042
    
    [GRAPHIC] [TIFF OMITTED] T2393.043
    
    [GRAPHIC] [TIFF OMITTED] T2393.044
    
    [GRAPHIC] [TIFF OMITTED] T2393.045
    
    [GRAPHIC] [TIFF OMITTED] T2393.046
    
    [GRAPHIC] [TIFF OMITTED] T2393.047
    
    [GRAPHIC] [TIFF OMITTED] T2393.048
    
    [GRAPHIC] [TIFF OMITTED] T2393.049
    
    [GRAPHIC] [TIFF OMITTED] T2393.050
    
    [GRAPHIC] [TIFF OMITTED] T2393.051
    
    [GRAPHIC] [TIFF OMITTED] T2393.052
    
    [GRAPHIC] [TIFF OMITTED] T2393.053
    
    [GRAPHIC] [TIFF OMITTED] T2393.054
    
    [GRAPHIC] [TIFF OMITTED] T2393.055
    
    [GRAPHIC] [TIFF OMITTED] T2393.056
    
    [GRAPHIC] [TIFF OMITTED] T2393.057
    
    [GRAPHIC] [TIFF OMITTED] T2393.058
    
    [GRAPHIC] [TIFF OMITTED] T2393.059
    
    [GRAPHIC] [TIFF OMITTED] T2393.060
    
    [GRAPHIC] [TIFF OMITTED] T2393.061
    
    [GRAPHIC] [TIFF OMITTED] T2393.062
    
    [GRAPHIC] [TIFF OMITTED] T2393.063
    
    [GRAPHIC] [TIFF OMITTED] T2393.064
    
    [GRAPHIC] [TIFF OMITTED] T2393.065
    
    [GRAPHIC] [TIFF OMITTED] T2393.066
    
    [GRAPHIC] [TIFF OMITTED] T2393.067
    
    [GRAPHIC] [TIFF OMITTED] T2393.068
    
    [GRAPHIC] [TIFF OMITTED] T2393.069
    
    [GRAPHIC] [TIFF OMITTED] T2393.070
    
    [GRAPHIC] [TIFF OMITTED] T2393.071
    
    [GRAPHIC] [TIFF OMITTED] T2393.072
    
    [GRAPHIC] [TIFF OMITTED] T2393.073
    
    [GRAPHIC] [TIFF OMITTED] T2393.074
    

</pre></body></html>
